       ~~~
       #'




Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




   MARKETING PRACTICES OF
 SOUTH FLORIDA HMOs SERVING
   MEDICARE BEN EFICIARI ES




          VlCES




                  Richard P. Kusserow
                  INSPECTOR GENERAL

                     NOVEMBER 1~1
        #'




Department of Health and Human Services
        OFFICE OF
   INSPECTO R GENERAL




   MARKETING PRACTICES OF
 SOUTH FLORIDA HMOs SERVING
   MEDICARE BENEFICIARIES




              V1CF3




                      Richard P. Kusserow
                      INSPECTOR GENERAL

       '.t ~claa          OEI- 04-91-00630
              EXECUTIVE SUMMAR Y

PURPOSE

This report describes marketing practices of risk-contracted health maintenance
organizations (HMOs) serving Medicare beneficiaries in South Florida.

BACKGROUND

In most geographic areas , Medicare beneficiaries obtain medical care through a fee-
for-service program. However , in some places , beneficiaries may obtain Medicare
covered medical care in two ways.

Regular Fee-for-Service Medicare Program - Beneficiaries choose each of their own
health care providers. Medicare payments are based on each allowed service the
beneficiary receives.

Prepaid Health Plans - Beneficiaries enroll in health organizations which manage their
medical care. Under these plans , Medicare pays a predetermined amount per
beneficiary enrollee.

The most common types of prepaid health plans are risk-contracted HMOs. Such
HMOs are considered " at financial risk" because they agree to provide a beneficiary
total medical care for a set amount each month. Beneficiaries are required to obtain
all their medical care through providers affiliated with an HMO , except during (1) an
emergency, and (2) periods when care is urgently needed and the beneficiary is out of
the HMO service area.

In the fall of 1990 , newspapers in South Florida ran articles alleging marketing abuses
by HMOs. The articles indicated Medicare beneficiaries are sometimes
inappropriately enrolled and not adequately informed of the requirement that all
medical care must be received from HMO-affiliated providers. Concerned about the
situations described in these articles , the Administrator of the Health Care Financing
Administration (HCFA) requested the Inspector General to examine the marketing
practices and enrollment patterns of South Florida HMOs. This report deals with
marketing practices. Enrollment patterns are described in a separate report
(OEI- 04-91- 00640).

To analyze marketing practices , we relied on data collected from sampled beneficiaries
who enrolled in one of the six South Florida HMOs in 1990 , HMO marketing
materials , and HMO officials.
FINDINGS

On the positive side , we found that:

       Almost three- fourths of the beneficiaries themselves initiate contact with the
       HMO and ask about joining. However , this number varies by HMO.

       Few beneficiaries feel pressured by sales staff.

       Most of the beneficiaries know they are enrolling in an HMO and can only use
       providers affiliated with the HMO. However , this number also varies by HMO.

On the other hand , some instances of inappropriate marketing practices do occur.
Some HMOs fail to adequately monitor sales staff, leaving beneficiaries vulnerable to
inappropriate marketing practices. We found that:

       Eight percent of the beneficiaries say salespersons made unannounced visits to
       their homes asking them to enroll in an HMO.

       Nine percent of the beneficiaries say they had not known they were enrolling in
       an HMO when they signed the application. Another 10 beneficiaries could not
                                                                    HMO.
       be interviewed because they maintained they had not been in an


       Ten percent of the beneficiaries were unaware they could only use HMO
       providers.

       Seventeen percent of the beneficiaries were unaware they could "back-out" if
       they changed their minds after signing the application.

       Some beneficiaries have been vulnerable to unethical sales practices.

RECOMMENDATIONS

The following recommendations target Medicare prepaid health care program
vulnerabilities , as well as addressing troublesome situations encountered during this
inspection of South Florida HMOs.

       The HCFA should establish standards for sales force training and monitoring,
       and hold HMOs accountable for maintaining those standards.

       The HCFA should establish a policy limiting enrollment to one " open    season
       (opportunity to enroll) per year.


       frequent enrollment change. 

       The HCF A should establish an on-line system to identify and review cases of
      In the three-county Miami service area , HCF A should test the efficacy of a
      third party handling HMO enrollment actions.

      The HCF A should impose a " cooling off' period allowing beneficiaries to
      reconsider HMO enrollment decisions before enrollment applications are
      processed.

COMMENTS

Comments on the draft report were received from HCF A and the Assistant Secretary
for Planning and Evaluation (ASPE). Both agencies agree that HCFA should identify
and review frequent enrollment changes , and HCFA believes they now have that
capability. While ASPE supported the concept of a "cooling off' period for Medicare
enrollees , HCF A thinks a " cooling off' period is not needed.

Neither agency concurred with the other recommendations. We will defer our
comments on their responses until the OIG completes its national study on HMO
disenrollments (OEI- 06-91- 00730).

The comments of HCF A and ASPE can be found in appendix E. Where appropriate
we made the technical changes they suggested.




                                         III
                          . . . . . . . . . . . . . . . . . . . . . .                   .. . . .. . . . . . ..
                                                                    . .. .. .. .. .... . . . . . . .




                 TABLE OF CONTENTS
EXECUTIVE SUMMARY

IN1RODUCfION ................................................




   Scope .

   Purpose ..................................................... 

   Background ..................................................

         ...................................................... 4

   Methods .....................................................


FINDINGS ......................................................                                                  6

   Most Beneficiaries Initiate Contact with the HMO to Enroll.

   However , the Percent Varies by HMO .............................. 6


   Few Beneficiaries Feel Pressured
   bySalesStaff .................................................


   Most Beneficiaries Understand HMO
   Requirements Before They Enroll.

   However, this Varies by HMO ...................................


   Some HMOs Fail to Adequately Monitor Sales
   Staff, Leaving Beneficiaries Vulnerable to
   Inappropriate Marketing Practices .................................


   Some Beneficiaries Have Been Vulnerable
   to Unethical Sales Practices .....................................


RECOMMENDATIONS

APPEND !XES

   Appendix A: Methods and Sample Selection                     ....................... A-

   Appendix B: Responses to Telephone
         Survey of Beneficiaries      ................................... B-


   Appendix C: Responses to Face- to-Face
        InterviewswithBeneficiaries ............................... C-

   Appendix D:   Analysis of Survey Respondents vs. Nonrespondents                                ....... D-

   Appendix E:   Comments on the Draft Report                                                          .... E-
                         INTRODUCTION€
PURPOSE

This report describes marketing practices of risk-contracted health maintenance
organizations (HMOs) serving Medicare beneficiaries in South Florida.

BACKGROUND

In the fall of 1990 , newspapers in South Florida ran articles alleging marketing abuses
by HMOs. The articles indicated Medicare beneficiaries are sometimes
inappropriately enrolled and not adequately informed of the requirement that all
medical care must be received from HMO-affiliated providers. Monitoring reports
from HCF A also noted problems with marketing materials and practices of some
South Florida HMOs.

Responding to these concerns , the Administrator of the Health Care Financing
Administration (HCFA) requested that the Inspector General conduct an inspection of
marketing practices of HMOs serving Medicare beneficiaries in South Florida.
inspection of beneficiaries who repeatedly change their enrollments among South
Florida HMOs was conducted at the same time. (OEI- 04-91- 00640)

The Medicare Program

Medicare is a Federal health insurance program for individuals age 65 and older and
for certain categories of disabled people. Authorized in 1965 by title XVIII of the
Social Security Act , Medicare serves over 33 million beneficiaries nationwide. Within
the Department of Health and Human Services , HCF A is responsible for
administering the Medicare Program.

Method of Service

In most geographic areas , Medicare beneficiaries obtain medical care through a fee-
for-service program. However , in some places , there are two ways in which
beneficiaries may obtain medical care covered by Medicare.

Regular Fee-for-Service Coverage - Beneficiaries choose their own physicians
hospitals , and other medical care providers. The beneficiary pays the Medicare
premiums , deductibles for inpatient and outpatient care , and 20 percent of the
allowable charge for covered physician and other outpatient   services.

Prepaid Health Plans - Beneficiaries enroll in Medicare-contracted health
                                            Beneficiaries continue to pay
organizations which manage their medical care.
Medicare premiums. They may also have to pay the plan a monthly premium and/or
a copayment for each service received. However, they do not pay the deductibles or
20 percent of physician and outpatient charges required under the fee- for-service
program. As a result , these beneficiaries do not need Medicare supplemental policies.

A beneficiary can be in only one program at a time. He/she cannot combine fee- for-
service and prepaid health plans.

The most common types of Medicare prepaid health plans are risk-contracted HMOs.
These HMOs are considered " at financial risk" because they agree to provide a
beneficiary s total medical care for a set amount paid monthly by Medicare.

These HMOs serve beneficiaries who live within a defined geographic area. They are
responsible for providing the full range of Medicare services. They may offer other
benefits not covered by Medicare , such as prescription drugs.

Mter joining an HMO , the beneficiary selects a primary care physician (PCP)
affiliated with the plan. All medical care is managed by that PCP. The PCP either
provides the services needed or refers the beneficiary to appropriate specialists or
other health care providers.



The HMO network of providers may be either HMO employees working in an HMO-
owned facility or private physicians contracting with the HMO to provide services to
the members. Some HMOs use a combination.

Beneficiaries are required to obtain all their medical care through the providers
affiliated with the HMO , except for emergency and out-of-area urgently needed care.

In an emergency, beneficiaries can receive care anywhere. The HMO will pay for the
care , even if the provider is not affiliated with the HMO. The HMO also will pay for
urgently-needed care a beneficiary receives when out of the HMO' s service area.
Neither the HMO nor Medicare will pay for non-emergency or non-urgent care
obtained outside the HMO without prior approval of the HMO. The beneficiary is
responsible for those charges.


Uniqueness of Miami HMO Market

The HMO market in the three-county Miami area is unique in the number of elderly
and the number of risk-contract HMOs.

Nationally, persons over age 65 comprise 13 percent of the population. In the three-
county Miami area , approximately 18 percent of the population is over the age of 65.
In 2 of the 3 counties , over 20 percent of the population is over 65. Some live in
Florida full- time.   Others   live there only part of the year , and reside in other States
the rest of the time.


In most locations , only one or two HMOs are available to Medicare beneficiaries. In
the Miami area , five risk-contract HMOs currently serve beneficiaries. Approximately
33 percent of the elderly are enrolled in one of those HMOs. Two additional HMOs
have applied to serve beneficiaries in the Miami area and will be granted contracts if
they meet HCF A requirements. Since the benefits HMOs offer are quite similar
marketing of the programs is highly competitive.

The HMOs Serving Beneficiaries in South Florida

Six HMOs currently serve beneficiaries in South Florida. For the purpose of this
study, the Humana Medical Plan serving the Miami area and the plan serving the
Tampa area were treated as two separate HMOs. Although the Humana corporate
policies are the same for both areas , the marketing practices may differ. In Tampa
Humana is the only risk-contracted HMO available. In Miami , Humana has
competition from four other such plans serving Medicare beneficiaries.

The six HMOs serving beneficiaries in South Florida are:

       Humana Medical Plan (Tampa);

       Humana Medical Plan (Miami);

       CAC- RAMSA Y;

       Av-Med Health Plan;

       Health Options of South Florida; and

       CareFlorida.

None of these HMOs charge an HMO monthly premium. They all charge copayments
for some services not covered by the regular Medicare program , such as dental care.
Only two , Health Options and Av- Med , charge copayments for physician services.

The HMOs vary in their methods of operation:

       Health Options and Av- Med        provide services solely through contracted
       physicians and providers.




    Demographic data from county planning departments in Dade , Broward , and Palm Beach Counties
and the u.S. Department of Commerce; Bureau of the Census.
        CAC has a combination of HMO-owned medical centers and contracted private
        physicians. The CAC regional offices coordinate patients ' care and referrals
        made by PCPs. The corporate office pays the specialists for the services they
        render.

        Humana also has a combination of HMO-owned medical centers and
        contracted private physicians and physician groups. Humana has risk contracts
        with all its contracted PCPs. The HMO provides each PCP (or PCP group) a
        set amount each month per HMO patient. The PCP controls and pays for all
        care the beneficiary receives ,                 whether through the PCP or specialists.

        CareFlorida uses only contracted private physicians                     to provide care.   Thirteen
        PCP groups are under a risk contract and 240 PCPs are not at risk. Some of
        those under a risk contract do their own advertising and have their own
        salespersons. Some industry people refer to this type arrangement as a "mini-
        HMO.

SCOPE

We examined the marketing practices of the six risk-contracted HMOs serving
Medicare beneficiaries in the counties of Dade , Broward , Palm Beach , Hillsborough
Pinellas , and Pasco.

Although these HMOs may serve beneficiaries in other areas , we included only the
South Florida operations in this inspection.

Medicare enrollment and service areas for the six HMOs currently serving
beneficiaries in South Florida are:



  NAME                                    MEDICARE                      COUNTIES
                                         ENROLlEES *                     SERVED

  Humana Medical Plan                           722          Pinellas , Hillsborough , Pasco (Tampa area)€
  Humana Medical Plan                       100 503          Dade , Broward , Palm Beach (Miami area)€
  CAC- RAMSA Y                                  090          Dade , Broward

  Av-Med Health Plan                            138          Dade, Broward , Palm Beach€
  Health Options of

    South Florida                                 300        Dade , Broward

  CareFlorida                                     484        Dade , Broward , Palm Beach€

    Number of Medicare members as of February 
                 1991 according to the HMOs.
METHODS

We obtained information for this study from various sources , including:

       a review of HCFA regulations to determine Federal requirements for HMOs;

       a review of the marketing materials used by each HMO to determine if they
       meet HCF A requirements;

       discussions with officials representing each HMO to learn each company
       policies and practices;

       a telephone survey of 601 randomly selected Medicare beneficiaries to ascertain
       their experiences in joining an HMO; and

       face- to- face interviews with 22 beneficiaries who had 15 or more multiple
       enrollments in HMOs to determine their reasons for changing HMOs.

Telephone Survey



We drew a sample of 833 beneficiaries from a universe of 37 423 beneficiaries who
enrolled in one of the South Florida HMOs between January and October 1990. This
was their first , and only, enrollment in an HMO.

The survey was conducted January 7- , 1991. A total of 601 of the 833 beneficiaries
were interviewed , yielding an overall response rate of 72 percent.

Another 10 beneficiaries were contacted , but could not be interviewed. They
maintained they had not been in an HMO and could not answer questions about
enrollment.

Face-to-Face Interviews

Through their data base , the HCF A Region IV office identified 26 beneficiaries who
had each enrolled in different HMOs 15 or more times since becoming eligible for
Medicare. Because of HCF A' s concern about multiple enrollments , we included these
beneficiaries in our study. Staff conducted face- to-face interviews with 22 of the 26
during January 28-     , 1991 to determine their reasons for multiple enrollments.

Appendix A describes in greater detail the data collection methods used in this
inspection. Appendix B contains the telephone survey instrument and response
frequencies , by HMO. Appendix C contains the survey instrument and response
frequencies to the face- to- face   interviews with beneficiaries.   The analysis of
nonrespondents is found in appendix D.
                                 FINDINGS€

MOST BENEFICIARIES INITIATE CONTACf WITH THE HMO TO ENROLL
HOWEVER, THE PERCENT VARIES BY HMO.

Our interviews with 601 HMO enrollees showed that almost three-fourths (72 percent)
of the beneficiaries say they themselves had contacted the HMO about joining.

Although 25 percent of the beneficiaries say the HMO approached them about
joining, the number varies widely by HMO. For example , 10 percent of the
beneficiaries in Av- Med say the HMO contacted them , whereas 41 percent in
CareFlorida say they were contacted by the HMO.

Three percent of the beneficiaries do not remember who initiated the contact.

How do the beneficiaries hear about the HMO?

About half of the beneficiaries in the survey indicate they first heard about their
HMOs through friends or relatives. Others learned of the HMOs through
advertisements on television , in newspapers , and in the mail. Only a few first heard
about their HMOs from senior citizen groups, the Social Security office , or other
sources. Approximately 2 percent had previously been in the HMO and simply
converted to the Medicare component when they turned 65.

Advertising methods vary by HMO and are determined usually by the HMO' s size and
marketing budget. All have used television, radio , and newspaper advertising at one
time or another.



Some HMOs also conduct mass mail-outs of brochures. They purchase lists of         elderly
persons within a given zip code and send them information about the HMO.

Presentations to groups of senior citizens and participation in "health fairs " are other
marketing methods frequently used. Humana and CAC , which have HMO-owned
centers , often have " open houses " offering free health screening tests, refreshments
and tours of the facilities.

Humana relies most heavily on television ads. The smaller HMOs use less expensive
methods , such as mail-outs and presentations. Advertising by CAC is almost
exclusively in Spanish, while the other HMOs primarily advertise to English-speaking
audiences.
                      HMOs USE SEVERAL METHODS TO ADVERllSE
                       Humana     Humana                 Health                     Care
                                               CAC                  Av-Med
                        Miami     Tampa                  Options                    Florida
 Television              Yes        Yes        Yes        Yes                        Yes
 Radio                                         Yes
 Newspapers                                    Yes        Yes                        Yes
 Mass Mailings           Yes        Yes                               Yes
  Open Houses            Yes        Yes        Yes
 Phone Solicitation                                                                  Yes

What happens after the beneficiary contacts the HMO?

When beneficiaries call the HMO to inquire about joining, they are encouraged to let
a salesperson come to their home and explain the program requirements. In most
instances , that is what occurs , and the salesperson completes an application if the
beneficiary requests to join. However, some beneficiaries prefer that the HMO mail
them the additional information and the application, and not send a salesperson.

Where HMOs initiate contact, how do they identify prospective enroUees?

Each of the six HMOs we reviewed solicited Medicare beneficiaries through a door- to-
door process--although such solicitation violates HCF A regulation. Of    the 601
beneficiaries we interviewed , 150 told us an HMO salesperson had initially contacted
them for enrollment. Thirty-four percent of the 150 said the HMO salesperson came
to their homes , soliciting their enrollment in an HMO. Thus , about eight percent of
the 601 we interviewed received unannounced visits from HMO salespersons asking
them to enroll.

Salespersons used various sources to identify potential beneficiaries for HMO
enrollment. The sources included relatives , friends , and doctors. About 64 percent of
the 150 beneficiaries solicited by the HMOs we reviewed said they did not know how
the HMO salesperson obtained their names. All of the HMOs included in our
analysis reported that their salespersons obtain leads for potential enrollees from
current members and functions such as open houses or presentations on the HMO.


FEW BENEFICIARIES FEEL PRESSURED BY SALES STAFF.

Only four percent of the beneficiaries say they felt pressured to join the HMO. Most
beneficiaries who felt pressured cite persistence of the salesperson. Some say the
salespersons kept calling them. Other beneficiaries say the salesperson repeatedly
extolled the benefits of the plan in a poor economy. Two beneficiaries were told
enrollment in an HMO would not affect their way of getting medical care , and one
was told her enrollment would help the salesperson.

Two beneficiaries say the salespersons misrepresented the agencies with which they
were affiliated.€

Who are the salespersons wlw visit beneficiaries?

The types of salespersons who market HMOs vary by plan. Most are either (1) HMO
employees who market only the HMO , or (2) private independent insurance
salespersons who market the HMO in addition to other products , such as Medicare
supplemental policies. Florida law requires that all HMO salespersons be licensed as
insurance agents.

In Miami , Humana has 140 salespersons employed by the HMO and 12 independent
agents. In Tampa , Humana has a sales force of 75 employees.

The CAC plan has a sales force of 25- 30 employees.

Health Options , which is owned by Blue CrosslBlue Shield , has contracted with 40
senior citizens who market the HMO and sell other Blue CrosslBlue Shield products.

CareFlorida employs six full- time salespersons. They also use 60- 70 independent
agents , although only 15 of them are said to generate significant business. Some of
their 13 risk-contracted PCPs also have sales staffs of independent agents.

Av- Med has 7 salespersons employed by the HMO and 15 independent agents.

What type of training do salespersons receive?

Although HCF A has no requirement for training salespersons , each HMO provides
some training for new staff.€

Humana has the most extensive sales force training. Initially, each salesperson
receives 30 hours of classroom training. He/she is tested and must score 72 (out of a
possible 100) overall , and must correctly answer an essay question about " lock-
During the salesperson s first two weeks on the job , management observes five
presentations. The salesperson       is retested every six months and must score 77 overall
and 100 on the " lock- " question.




     Lock- " refers to a requirement that all medical care must be received from HMO-affiliated
providers.
Health Options provides eight or more hours of formal training for new salespersons
and quarterly training for all the sales force. Health Options also tests its salespersons
once a quarter.

The sales staff of CAC receive two to three days of formal training.

Both CareFlorida and Av- Med     provide less formal training for their sales staffs.

Although only Humana and Health Options have formal retraining, all HMOs have
regular meetings with their sales staff. The meetings are scheduled as follows:


                             HMO SALES STAFF MEET REGULARLY
                                       Weekly          Twice Monthly          Monthly
       HUMAN A MIAMI
                   Yes
       HUMAN A TAMPA                    Yes
       CAC                                                                      Yes
       HEALTH OPTIONS                                       Yes
       AV- MED                          Yes
       CAREFLORIDA
        Employees                       Yes
        Independent Agents
         (Includes some
         PCP-based agents)                                  Yes
        Independent Agents
          From 3 PCPs                                                           Yes

How are sales staffs paid?

All HMOs pay salespersons a commission for each beneficiary enrolled. The amount
per person enrolled increases with the number of enrollees per month. For example
the HMO may pay the salesperson $60 for each of the first 20 enrollees in a month
and $75 for additional enrollees that month. The dollar amounts vary by HMO , as do
the commission policies.

The CAC pays a retention fee of $2. 00 for every month a beneficiary remains enrolled
in the HMO. CAC believes this provides an incentive for sales staff to remain with
the HMO and keep beneficiaries they have enrolled in the plan. When a salesperson
moves to another HMO , he/she may persuade members to change to the other plan.
Humana and Health Options pay salespersons a lump sum amount after a beneficiary
has been enrolled a specified number of months. Humana pays $25 after a
beneficiary has been enrolled for 13 months. Health Options pays $5 after six months.
CareFlorida staggers commission payments to its independent agents. Half is paid
when the beneficiary enrolls. One- fourth is paid when the beneficiary has been
enrolled three months , and the remaining fourth is paid when the beneficiary has been
enrolled six months. CareFlorida does not pay a commission for the third time a
beneficiary enrolls within 12 months.

Humana , CAC , and Av-Med revoke commissions if the beneficiary disenrolls within 90
days.

The following chart illustrates the differences in sales staff pay structures among the
HMOs.

                             HMO COMPENSAll0N POUCIES DIFFER

                            Humana     Hurnana              Health                Care Florida
                                                  CAC               Av-Med
                            Miami      Tampa                Options            Employee   Independent
 SALES COMPENSATION

  Payment for enrolling        250        250     $1,500       662     800        875        $1,590
  30 beneficiaries€
  Penalty for early outs    90 Days     90 days   90 days     None   90 days     None         None
   Bonus " for longevity       Yes         Yes       Yes       Yes                              Yes
  Bonus " on 30 enrol-         $750       $750       080      $150                              500
 lees staying 18 months€
 Total payment on 30         $3, 000       000    $2, 580      812   $1,800        875          090
 enrollees staying 18 mo.

 Quotas: Employees                                 None       None    None
        Indep. Agents         None       None      None       None    None                    None

How do HMOs monitor their salespersons ' activities?

The HCF A has no specific requirement for monitoring enrollment practices of HMO
salespersons. The HMOs we reviewed , however , have several methods for identifying
and curtailing inappropriate enrollment practices by their sales staff. Some have also
implemented processes for discouraging and correcting improper practices.

First , HMOs are required by Florida law to conduct an enrollment verification.
Generally, HMO employees other than salespersons are expected to call potential
enrollees before processing their ap plication and ensure that they: (1) know they are
joining and HMO and (2) understand the " lock- " concept. Potential enrollees who
do not understand are either provided further information or referred to the
marketing department for further explanation before enrollment. One of the six
HMOs we reviewed , Humana , also telephones beneficiaries about 10 days after their
enrollment to answer questions and ensure that they have received membership
materials.

Second , each HMO receives beneficiary complaints and appeals which provide
information on enrollment practices of salespersons.

Third , two HMOs , Humana and CAC, kept records on salespersons who appeared to
have provided inadequate or erroneous information to potential enrollees. Humana
referred such cases to a private company for investigation. Where such investigations
confirmed inappropriate practices , Humana took disciplinary action , including
warnings , retraining, and termination. One HMO , Health Options , did not keep
records on claims of inappropriate enrollments by salespersons , stating that such
practices were so few, records were not warranted.


MOST BENEFICIARIES UNDERSTAND HMO REQUIREMENTS BEFORE€
THEY ENROlL. HOWEVER, TIllS VARIES BY HMO.€

How do beneficiaries get information?

In most instances , beneficiaries talk to at least two HMO representatives and receive
written material prior to enrolling. First , salespersons explain the program and
provide some written information. Then, the HMO calls beneficiaries to verify their
intent to enroll and their understanding of " lock- in. " Mter enrollment , members are
mailed additional written information , usually a handbook, that describes the program
and requirements. Humana also calls the beneficiary again after 10 days and conducts
group meetings for new enrollees.

The HCF A regulations require that HMOs provide prospective enrollees with written
material which fully explains program requirements and beneficiary rights. The
membership materials reviewed for this inspection have clear explanations of program
requirements , particularly " lock- in.

Do beneficiaries understand the requirements before they enroll?

Overall , we found that most beneficiaries knew about HMO requirements before they
joined. However , the number who understand varies by HMO.

       Ninety percent knew they were enrolling in an HMO when they signed the
       application form. Most who did not know thought they were applying for
       supplemental insurance or additional benefits. Five people did not remember
       signing an application.€
       Eighty-nine percent knew they could only use medical providers affiliated with
       the HMO (except for emergency or urgently-needed care).

       Seventy percent knew they must pay for care incurred outside the HMO
       (except for emergency or urgently-needed care). Ten percent do not remember
       if they had known this when they enrolled.

The proportion of beneficiaries who are knowledgeable about program requirements
varies by HMO of enrollment. To determine if      factorsother than the HMO of
enrollment account for this variation , age and gender of the respondents were
considered. The analysis showed that understanding of the " lock- " provisions of
HMO membership did correlate with age; that is , older respondents seem not to have
understood the "lock- " provisions as well as younger people.

To adjust for these differences , the responses to three survey questions were
standardized by age and gender, and the response frequencies recalculated. The
following table shows that knowledge of "lock- " related program requirements still
differs among enrollees in the six HMOs , even after standardization. (See page A-
for the method used to standardize for age and gender.

             BENEFICIARIES' KNOWLEDGE OF REQUIREMENTS DIFFERS BY HMO
                                  Human     Human                  Health           Care
                                                            CAC            Av-Med
                                   Miami    Tampa                  Options          Florida
 When Signed Application:
 Did Not Know Enrolling in an
 HMO                                                         15%             13%       26%
 Did Not Understand Lock-            11%                     13%             17%       25%
 Did Not Know Could " Back
 Out" Prior to Enrollment
 Becoming Effective                  21%                     26%             14%       36%

This table indicates that some HMOs , such as Health Options and Humana in Tampa
have been more successful in imparting program information than others, such as
CareFlorida.

At the time they applied for HMO coverage , almost 90 percent of the beneficiaries
knew when their enrollment would be effective and how to get medical services.
Eighty- three percent knew what to do in regard to coverage for emergency treatment.
About three- fourths knew how to see a specialist and to get other information they
needed about the HMO.

Although 81 percent knew they could have " backed out" prior to their date of
enrollment , only 61 percent knew how to disenroll. The marketing materials
beneficiaries receive prior to enrolling inform them of their ability to disenroll and
their right to appeal. The procedures for these actions , however, are described in the
handbooks beneficiaries receive after enrolling.

Enrollees of HMOs maintain their Medicare right to appeal denials of claims. They
may appeal denials of payments for emergency and urgently needed care received
outside the HMO. They may also appeal refusals of service. However, only
35 percent know how to appeal these HMO decisions.

Most beneficiaries (88 percent) say they think their salespersons gave them accurate
information. Only five percent say they were given inaccurate information. The
others either do not know if the information is accurate or they do not remember.

How   do the   HMOs compare in marketing approaches and operations?

The chart on the following page provides a summary of HMO operations and some
findings from the telephone survey of beneficiaries. Responses to the survey have
been standardized to accommodate the respondents ' age and gender differences
among the HMOs.
                                              SUMMARY OF HMO SURVEYS

                              Humana    Humana    CAG    Health Av-Med      Care Florida
                              Miami     Tampa           Options        Employee Independent
HMO SURVEY

Sales Staff

  Employees                      140                 25+

  Independent Agents                                                                        60+

  Contracted                                                  40+

Sales Compensation
  Payment For Enrolling
  30 Beneficiaries               250    $2,250    $1, 500     662       800    $2, 875          590
  Penalty For Early Outs      90 Days   90 Days   90 Days   NONE     90 Days   NONE NONE
   Bonus " For Longevity        YES       YES       YES      YES                     YES
   Bonus " on 30 Enrollees
   Staying 18 Months            $750      $750    $1,080    $150                            500
  Total Payment On 30
   Enrollees Staying 18 Mo.   $3, 000      000       580      812    $1,800       785    $3,090
  Quotas: Employees                               NONE      NONE     NONE
       Indep. Agents          NONE      NONE      NONE      NONE     NONE                NONE
Sales Staff Training
  Initial Training              30 hr     30 hr    3 Days    8+hr Informal Informal      Informal
  Retraining                    YES       YES                YES
Marketing Approaches
  Television                    YES       YES       YES      YES                    YES
  Radio                                             YES      YES
  Newspapers                                        YES      YES                    YES
  Mass Mailings                 YES       YES                          YES
   Open Houses                  YES       YES       YES      YES
  Phone Solicitation                                                                YES
BENEFICIARY SURVEY RESPONSES
Aspects of Enrollment ...
Pressured to Join                                   2.5%
Not Oear Enrolling in HMO                          14.5%     4.4%     12.                 25.
Unaware of Lock-               11.2%               13.                16.                 24.
Unaware of Back- Out           20.                 25.                14.                 36.3%
Initiation of HMO Contact
  HMO Initiated Contact        22.       35.       28.3%    16.                           40.
  Sales Rep. Visited Home       7.4%                                                      17.
Aspects of Services.......
Seen MD Since Joining          81.7%     86.3%     82.      80.       78.3%               70.
Services Found Later Not
  To be covered                16.3%     11.4%     10.      13.       16.
Unable to See Needed
  Physician                    11.2%     13.        7.4%               7.4%
Services Worse Than
  Previous Care Source         15.       18.       11.                 5.4%               13.3%
                    , "





SOME HMOs FAIL TO ADEQUATELY MONITOR SALES STAFF, lEAVING€
BENEFICIARIES VULNERABLE TO INAPPROPRIATE MARKETING€
PRACfICES.€

Although HMOs have changed several policies within the last few years to better
monitor sales staffs and curtail inappropriate practices , several HMO practices may
still leave beneficiaries vulnerable to inappropriate enrollment. For example , HMOs
have little or no control over salespersons attached to PCPs and clinics or independent
agents. Further, HMOs sometimes compromise the integrity of enrollment verification
by conducting the verification while salespersons are present in beneficiaries ' homes.

      Salespersons Attached to PCPs or Clinics€

      The HMO has little control over salespersons attached to PCPs or clinics.
      When PCPs or clinics are financially responsible for all care provided to their
      enrollees (e.g. at risk" ), their interest in who is enrolled and who is not may be
      influenced by the health status of the member. Having the means to control
      enrollments and disenrollments makes it possible for PCPs to enroll
      beneficiaries while healthy, then disenroll them when sick.

      Also , a beneficiary may feel compelled to join an HMO if his doctor s agent (a
      PCP salesperson) approaches him about enrolling. Further, if he enrolls in an
      HMO because of his own primary physician s affiliation with it , he may be less
      likely to understand " lock- " as it relates to ancillary health care providers.

      CareFlorida currently uses salespersons attached to PCPs or PCP-groups.€

      Use of Independent Agents


      Again , HMOs currently exercise little control over salespersons not in their
      employ. Although these agents have signed Codes of Ethics and other
      affidavits agreeing to adhere to HCF A and HMO marketing guidelines , they
      may not be as committed to follow them as an HMO employee would be.
      They do not have as much to lose if found using inappropriate marketing
      methods. These sales agents may lose their association with the HMO , but
      they would not jeopardize their eligibility to market other products.

      The fact that these agents market products in addition to HMOs could also
      hamper a beneficiary s understanding of " lock-in. "   If the salesperson discusses
      several products , the beneficiary may not realize it is an HMO for which he/she
      has applied. Nine percent of the beneficiaries in the survey did not realize they
      had applied for an HMO when they signed the application.

      CareFlorida , Av- Med , and Humana in Miami currently use independent agents.
       Enrollment Verification Conducted from Beneficiary s Home

       Consistent with Florida law, most HMOs telephone potential enrollees for
       verification after the salesperson has left the home and submitted the
       application for processing. However, one HMO , Humana , telephones the
       HMO from the beneficiary s home immediately after taking the application.
       The HMO interviewer completes the telephone verification at that time.
       beneficiary who has felt pressured to join or does not understand the
       requirements may not be willing to tell the interviewer while the salesperson is
       present. Making the verification call several   days after the application is signed
       enables a beneficiary who has changed his mind to more easily " back      out"
       Although Humana calls beneficiaries again   , it is   10 days after they have been
       enrolled.

       Also , verification conducted from the beneficiary s home may make the HMO
       vulnerable to claims of fraudulent enrollments. Since the salesperson places
       the call to the HMO , the verifier has no assurance that the individual the
       salesperson has him talk to is an actual applicant.


SOME BENEFICIARIES HAVE BEEN VULNERABLE TO UNETHICAL SALES
PRACfICES.

Some beneficiaries are not fully aware of their actions when enrolling in or changing
HMOs , and may be particularly vulnerable to unethical sales practices.

The HCF A Region IV office identified several blatant cases of abuse. According to
their records , the five HMOs in the Miami area had enrolled 26 beneficiaries a total
of 424 times since 1981. According to Florida newspaper articles , one of these
beneficiaries was reported to have been unaware that she had enrolled 16 times in at
least five HMOs since 1987.

The HCF A records show that all 26 of these beneficiaries were enrolled in an HMO
plan during the period of this inspection. We conducted face- to- face interviews with
22 of them. Four could not be located.

These beneficiaries were especially vulnerable people.       Some could not read. Some
had no transportation. Most did not have a regular physician. Many had problems
remembering their health coverage circumstances. Some seemed unconcerned about
these enrollment issues. Seventeen stated that they didn t know they would be
disenrolled automatically from their current HMO if they enrolled in another one.

The disorientation of such individuals can make them more susceptible to aggressive
or unscrupulous sales representatives. In fact, 16 of the 22 people (over 70 percent)
said that they had been influenced to change HMOs by sales representatives of the
HMOs. This reason had been given by only 20 percent of the beneficiaries in a survey
of a general sample of 136 multiple enrollees. (OEI- 04-91- 00640).

The enrollment records of these 26 individuals showed that virtually all of the multiple
enrollments were in three HMOs in 1990. The table below shows these activities.

            ENROLLMENT ACllONS OF 26 BENEFICIARIES TOTALlED             86 IN     1990
 Number of Enrollment Actions                   In:           Average      Length of     Enrollment
                                              CAC                               88 Months
                                          CareFlorida                           14 Months
                                            Humana                              58 Months

                                                                          3.49 Months

Each beneficiary was shown his/her enrollment history which identified the current and
all previous enrollments. When these beneficiaries were asked about their reasons for
changing, the most common answers were:

      convinced by an HMO representative;

      did not like previous HMO; and

      services were restricted or limited.

Several of these beneficiaries described actions by HMO representatives which violate
HCFA regulations and indicate abusive practices.

      Several beneficiaries reported that HMO representatives came to the their
      homes or communal gathering places and persuaded them to join an HMO
      while assuring them that their enrollment actions would not affect their
      Medicare coverage.

      One beneficiary said a " driver" picked him up to keep a medical appointment
      at his HMO. However, the driver took the beneficiary to a new HMO
      whereupon he was enrolled in that HMO plan. The beneficiary thought he was
      merely keeping his appointment with his current HMO.

      One beneficiary who was barely able to move said an HMO representative
      forcibly placed a pen in her hand and told her to sign the enrollment
      application. She signed.€
                     RECOMMENDA TIONS€
A number of HCF A policies and HMO practices leave the Medicare prepaid health
care program vulnerable to abuse. The following recommendations target those
vulnerabilities , as well as addressing troublesome situations encountered during this
inspection of South Florida HMOs.

         The HCFA should establish standards for sales force training and monitoring, and
         hold HMOs accountable for maintaining those standards.

South Florida HMOs now engage salespersons in three ways:

         as HMO employees;

         as contracted agents marketing only that company s products; and

         as independent agents who sell a variety of insurance products in addition to
         HMO coverage.

Training and monitoring of these salespersons vary widely by HMO and by type of
sales agent. Medicare-contracted HMOs must be accountable for the actions and
sales practices of their agents , regardless of the manner of employment.

The HCF A should develop standards for the content , duration and frequency of
training of sales agents , and should require HMOs to certify that those standards are
being upheld. Appropriate training of new salespersons must apply equally to
independent agents and HMO marketing staff. Periodic sales meetings should be held
to impart information on new HCF A regulations and policies. Such meetings should
also be used to correct aberrant sales practices detected by the HMOs.

Salespersons should be tested to assure that they understand all germane Medicare
rules , HMO services , and restrictions , as well as individual company policies.
Salespersons should be retrained as necessary and retested periodically. The HMOs
should maintain records of each agent' s participation in training and performance on
tests.

The HCF A should require that each HMO maintain records on and investigate
enrollee complaints about sales staff. Where a determination is made that individual
agents have been involved in inappropriate marketing and enrollment activities , such
as " cold calls " to Medicare beneficiaries ' homes , HCF A should require that disciplinary
measures be taken.
        The HCFA should establish a policy limiting enroUment to one "open   season
        (opportunity to enroU) per year.


Presently, HCF A rules allow Medicare beneficiaries to change their health insurance€
coverage as frequently as every month. Disenrollment from prior coverage €
automatic when the new enrollment occurs. This policy allows beneficiaries to change€
plans without thoughtful consideration of the pros and cons of their actions. The€
policy also encourages an aggressive approach to sales , since it allows a new sale to€
each enrollee every 30 days.


This policy clearly undermines HCF A' s commitment to managed health care. It also
increases the likelihood of confusion among beneficiaries over coverage issues , and
may jeopardize the well-being of those who have not made thoughtful decisions.
Based on health insurance industry norms, HCF A should establish an annual " open
season " so that changes in coverage may be made only once a year. The effective
date of change should be no sooner than 30 days after a new plan/form of coverage is
selected by the beneficiary.

To safeguard that beneficiaries are not disadvantaged by enrollment decisions contrary
to their best interests , HCF A should allow disenrollment "for cause " between open
season periods. The HCFA should develop the criteria for determining whether
sufficient " cause " is established.

        The HCFA should establish an on-line system to identify and review cases of€
       frequent enrollment change.

The HCF A' s  automated systems are capable of identifying individual Medicare
beneficiaries who have applied for HMO enrollment at the point each new enrollment
begins. The agency should       capitalize on this capability by:

        determining an appropriate threshold for number of changes acceptable over a
        specified period of time (e. , two per year) or minimum time between new
        enrollments (e.g. , 6 months);

        automatically scanning new enrollments for beneficiaries who exceed those€
        thresholds;€

        alerting the new HMO-of-enrollment to these cases , with adequate beneficiary€
       identification information;

       requiring the HMO to explain and document the circumstances      surrounding the
       sale and application for enrollment; and

       developing corrective actions and penalties for HMOs found to have€
       inappropriately enrolled Medicare beneficiaries.€
We note that HCFA has already taken preliminary steps to develop such a system.
We endorse the agency s early efforts in this regard. The refinements outlined above
are recommended to strengthen and standardize HCF A' s monitoring of excessively
frequent HMO enrollment change.

The system recommended here would be obviated by implementation of€
Recommendation #2 above or Recommendation #4 below.

      In the three-county Miami service area, HCFA should test the efficacy of a third€
      party handling HMO enroUment actions.€
A major vulnerability of the present system is that an HMO sales agent can sign up
Medicare beneficiary in his/her home at the time of the sales presentation.
Beneficiaries may not object to this practice in many instances, since it is convenient.
However, in cases where the beneficiary is intimidated by the sales agent, he/she may
sign-up just to get the sales person to leave.


Although the HMOs included in this review do have procedures for verifying that
beneficiaries understand certain provisions of HMO coverage , this may not be
adequate protection against inappropriate sales practices. We note in this report that
one HMO allows the verification call to be made while the salesperson is still present
in the beneficiary s home.

The best safeguard for an informed choice by the beneficiary is to ensure that the
decision to enroll in a new HMO is made independent of the sales person and even of
the HMO.

We recommend that HCFA contract , on a 2 to 3 year pilot basis , with a third party to
provide HMO enrollment services. One possible enrollment agent is the Social
Security Administration (SSA) District Offices (DO). In each DO in the Miami area
HCF A could fund a position or part   of a position for a service representative to advise
new enrollees on their decisions , and process the enrollments. An SSA service
representative would be able to provide objective , balanced information on health
coverage to the beneficiary, and answer applicants ' questions stemming from the sales
presentation.

This proposal is consistent with Secretary Sullivan s Program Direction which calls for
a more expansive role for SSA district offices in integrating SSA and other health and
human services.€

If an arrangement cannot be made with SSA, HCF A might contract for this service
with a private contractor in the Miami area. Such services could possibly be provided
under the auspices of senior citizen or other neighborhood service centers. Assuming
proper guidelines are provided to the contractor , this recommendation would obviate
Recommendations #2 and #3 above.
       The HCFA should impose a "cooling off' period allowing beneficiaries to
       reconsider HMO enrollment decisions before enrollment applications are processed.

Florida law now requires that , after an individual has applied to enroll in an HMO , a
verification phone call must be made by the HMO to ascertain the applicant'
understanding of the " lock- " feature of HMO enrollment , and assure that he/she
affirms his enrollment decision. This consumer protection step would seem a good
model for HCF A to adopt , with application nationally, to cover Medicare beneficiary
enrollments in prepaid health plans.

To further refine Florida s model , HCF A should require that enrollment verification
take place no sooner than 72 hours after the beneficiary has signed his/her application
to enroll. This " cooling-off' period is consistent with consumer contract protection in
many States.
                                  APPENDIX A€
                               METHODS AND SAMPLE SELECfION


Information for this inspection was obtained from:

            a review of HCFA regulations to determine Federal requirements for HMOs;

            a review of the marketing materials used by each HMO to determine if they
            meet HCF A requirements;

            discussions with officials representing each HMO to learn each company
            policies and practices;

            a telephone survey of 601 randomly selected Medicare beneficiaries to ascertain
            their experiences joining an HMO; and

            face- to-face interviews with 22 beneficiaries who had 15 or more multiple
            enrollments to determine their reasons for changing   HMOs   frequently.

Review of H CF A Regulations

The HCF A regulations relating to HMO requirements were examined to compare
with HMO practices. Monitoring requirements for HCF A site visits and reports of
HCF A visits to each of the HMOs were also reviewed.

Review of HMO Marketing Requirements

Marketing and membership materials from each HMO were examined for compliance
with HCF A requirements. Particular attention was paid to each HMO' s explanation
of " lock- " instructions for obtaining emergency and urgently-needed care , and
procedures for filing complaints and appeals.

Discussions with HMO Officials

Site visits were made to all     to verify their marketing policies and procedures.
                                  HMOs

Discussions were held with HMO officials such as Chief Operating Officers and
Medicare Compliance Directors. In each location , Marketing Directors and Customer
Service Managers were always             included in the   discussions.
Telephone Survey of Beneficiaries€

The survey universe consisted of 37 423 beneficiaries who enrolled in one of the six
selected South Florida HMOs between January and October 1990. This was their
first , and only, enrollment in an HMO. Eighty-two percent of them were still
members as of November 1. Eighteen percent had disenrolled and returned to the
regular fee- for-service Medicare program.


A stratified sample of 839 of these beneficiaries was selected. The sample was
reduced to 833 because 6 beneficiaries were deceased.

The survey was conducted between January 7 and 25 , 1991. A letter was sent to each
person in the sample explaining the purpose of the survey. Each was asked to provide
his/her telephone number by returning a postcard enclosed with the letter. Phone
numbers were also obtained from Directory Assistance and directories that list
telephone numbers by street addresses.

Postcards were sent to beneficiaries for whom no telephone numbers could be found€
and to beneficiaries who could not be reached after calling their homes at least three€
times. Those beneficiaries were asked to call a toll-free telephone number so an€
appointment to conduct the survey could be arranged.


From the sample of 833 beneficiaries , 601 interviews were conducted yielding an
overall response rate of 72 percent.

The sample and response rate from each HMO was as follows:€

        HMO€           NUMBER IN SAMPLE         NUMBER OF           RESPONSE RA 1E
                                                RESPONSES
 Humana - Miami                  210€                 135€
 Humana - Tampa€
 CAC€                            132€
 Av- Med€                        133€
 Health Options
                 132€                 103€
 CareFlorida€                    131€
                                 833€                 601€


To compute overall findings for the report , responses to the questionnaire were
weighted according to each HMO' s proportion of the universe. The unweighted
actual frequencies of responses, however , are shown in appendix B.



                                         A -€
In addition to the 601 beneficiaries interviewed ,     another 10 beneficiaries were
contacted , but could not be interviewed. They maintained they had not been in an€
HMO and could not answer questions about enrollment. HCF A records indicate all€
10 had been in HMOs , and that , as of November 1 , 1990, 5 were still enrolled. The€
enrollments were distributed fairly evenly among the HMOs:€

         two in Humana- Miami;€

         one in Humana- Tampa;€

         two in CAC;€

         one in Av- Med;€

         two in Health Options; and€

         two in CareFlorida.€

Standardization of Responses€

Due to differences in the age and gender distribution of enrollees among the HMOs€
the proportions of respondents answering each question were standardized to€
eliminate differences that might be attributable solely to the age and gender of an€
enrollee. Using the total population of respondents as the referent group, the direct
method of standardization was used. ! Within the two genders , three age groups were
created: under 65 years of age , 65 to 74 years of age , and 75 years of age or older.
The six categories , with the appropriate weights are:€

              Age Group         Sex           Weight
              -c::: 65 Yrs.     Male            070
                                Female          073

              65- 74 Yrs.       Male            297
                                Female        0.347

              75 + Yrs.        Male             085
                               Female           128

The responses in tables on pages 12 and 14 present standardized proportions.€




     Harold A Kahn and Christopher T. Sempos Statistical Methods in Epidemiology. Oxford€
University Press ,   1989


                                             A -€
Face-to-Face Interviews

The HCF A Region IV office identified 26 beneficiaries whom HMOs had enrolled
total of 424 times in the last 10 years. Face- to-face interviews were conducted with
these beneficiaries.

We interviewed 21 of the 26 beneficiaries and the spouse of a recently deceased
beneficiary. We were unable to locate the remaining four beneficiaries. The
interviews were performed between January 28 and 31 , 1991. The response rate was
85 percent. Appendix C contains the survey instrument and response frequencies.
                           APPENDIX
                     RESPONSES TO TELEPHONE SURVEY
                            OF BENEFICIARIES

The answers shown below in capital letters were not read to respondents. No prompts
of possible answers were given to respondents.

      The first number listed shows the frequency of responses for the 601
      respondents to the survey. Numbers in parenthesis reflect the unweighted
      percent of responses overall and within each HMO. The sum of the individual
      percentages may not equal 100 percent due to independent rounding.

      Not all respondents answered every question.

      Legend:       H(M)                Humana - Miami
                    H(T)                Humana - Tampa
                    CAC                 Comprehensive American Care
                    Av-Med              Av- Med Health Plan
                    Health Op           Health Options
                    CFL                 CareFlorida

      How did you first hear about (Name of HMO)?
      (Respondents could mention more than one means.


      FROM FRIEND OR RELATIVE: 316€
      H(M)       H(1)       CAC                  Av- Med   Health Op    CFL€


      TELEVISION ADVERTISING: 96€
      H(M)        H(1)       CAC                 Av- Med   Health Op    CFL€


      HMO SALESPERSON CAME TO HOME:€
      H(M)       H(1)       CAC                  Av- Med   Health Op    CFL€


      NEWSPAPER ADVERTISING: 47€
      H(M)      H(1)       CAC                   Av- Med   Health Op    CFL€


      ADVERTISEMENTS IN THE MAIL: 28€
      H(M)      H(1)        CAC                  Av- Med   Health Op    CFL€


      FROM DOCTOR' S OFFICE: 21€
      H(M)      H(1)          CAC                Av- Med   Health Op    CFL€
 RADIO ADVERTISING: 17

 H(M)      H(T)         CAC                              Av- Med      Health Op      CFL



AT SENIOR CITIZEN' S GROUP: 8

H(M)        H(T)         CAC                             Av- Med     Health Op       CFL



FROM SOCIAL SECURITY OFFICE: 4
H(M)       H(T)       CAC                                Av- Med     Health Op       CFL


OTHER: 112
H(M)                    H(T)             CAC             Av-Med      Health Op       CFL




              Did you call (Name of HMO) to get information, or did (Name of
              HMO) contact you to ask you to enroll?
BENEFICIARY INITIAlED CONTACf: 433 (72%)
 H(M)      H(T)         CAC         Av- Med                          Health Op        CFL
100(74%)                62(66%)          55(68%)        78(85%)      83(81 %)        55(57%)
HMO INITIAlED CONTACf: 150 (25%)
 H(M)                    H(T)             CAC           Av-Med       Health Op        CFL
30(22%)                 31(33%)          24(30%)        9(10%)       17(17%)         39(41%)

BENEFICIARY DOES NOT REMEMBER: 17 (3%)
 H(M)       H(T)        CAC      Av- Med                             Health Op        CFL
5(4%)        1(1%)     1(1%)     5(5%)                               3(3%)           2(2%)

                                  Number Not Responding: 1 (0. 1%)
  H(M)
                 H(T)              CAC Av-                    Health Op
                                          1(1%)           Med                         CFL


              How did the HMO contact you?

              (Asked only of the 150 who said the HMO contacted them.



 H(M) H(T) CAC Av-
SALESPERSON



10(33%) 10(32%) 7(29%)
                         STOPPED BY HOME :         57 (38%)
                                                           Med
                                                        2(22%)
                                                                     Health Op
                                                                     11(65%)
                                                                                     CFL
                                                                                     17(44%)


  H(M) H(T) CAC Av-Med
SALESPERSON CONTACTED                    BENEFICIARY BY PHONE :      51 (34%)
                                                                              Health Op
                                                                                             CFL

12(40%)                 13(42%)          8(33%)         5(56%)       3(18%)          10(26% )

SALESPERSON             STOPPED BY A " GROUP GArnERING PLACE" (like a Senior Citizen

       H(T) CAC Av-Med Health Op CFL
Center): 3 (2%)
 H(M) 1(3%)
 1(3%)                                                                               1(3%)
 H(M) H(T) CAC Av-Med
SALESPERSON CONTACfED



7(23%) 7(23%) 9(38%) 2(22%)
                                      BY OTHER MEANS :       39 (26%)
                                                                    Health Op
                                                                    3(18%)
                                                                                     CFL
                                                                                    11(28%)


a. Do you         know how the salesperson got your name?
(Asked only of the 150 who said the HMo contacted them.

NO: 87 (58%)
  H(M)                   H(T)          CAC         Av- Med          Health Op        CFL
19(63%)                 25(81%)       9(38%)       6(67%)           8(47%)          20(51%)

YES: 52 (35%)
 H(M)         H(T)                    CAC          Av-Med           Health Op        CFL
 9(30)                  5(16%)       10(42%)       3(33%)           7(41%)          18(46%)

                              Number Not Responding: 11 (7%)
  H(M)                   H(T)        CAC          Av-Med            Health Op        CFL
 2(7%)                  1(3%)       5(21%)                          2(12%)          1(3%)


b. Where?
(Asked only of the 52 who answered YES to 3.


 H(M)  H(T)  FROM FRIEND OR RELATIVE
               CAC Av-Med Health Op
SALESPERSON GOT NAME



 3(33%) 3(60%) 1(10%) 2(67%) 2(29%)
                                                                    : 13 (25%)
                                                                                     CFL
                                                                                    2(11%)


  H(M) H(T) 2(20%)
SALESPERSON GOT NAMES DOcrOR
            CAC Av-Med Health Op
                          1(14%)
                                    FROM BENEFICIARY'                   : 7 (13%)
                                                                                     CFL
                                                                                    4(22%)


 H(M) H(T) CAC Av-Med
SALESPERSON GOT NAME



 2(22%) 1(20%) 2(20%)
                                    FROM MEDICARE :     5 (10%)
                                                                    Health Op        CFL



 H(M) H(T) CAC Av-Med
SALESPERSON GOT NAME



 1(11%) 1(20%)
                                    FROM SOCIAL SECURITY: 4 (8%)
                                                                    Health Op        CFL
                                                                                    2(11 %)


 H(M) H(T) 5(50%)
 3(33%)    CAC Av-Med
SALESPERSON GOT NAME



                  1(33%)
                                    FROM OTHER SOURCE :         23 (44%)
                                                                    Health Op
                                                                    4(57%)
                                                                                     CFL
                                                                                    10(56%)


Where did the salesperson say he or she was from?
THE HMO: 504 (84%)
  H(M)
120(89%) 84(89%)
                         H(T)         CAC
                                     62(77%)
                                                   Av- Med
                                                   83(90%)
                                                                    Health Op
                                                                    77(75%)
                                                                                     CFL
                                                                                    78(81 %)


  H(M) H(T)
THE GOVERNMENT: 2 (0.3%)
                                      CAC          Av-Med           Health Op        CFL
                                 1(1%)                                   1(1%)

SALESPERSON DID NOT SAY: 7 (1%)
 H(M)       H(T)       CAC                         Av- Med   Health Op     CFL
                                 1(1%)             2(2%)     1(1 %)      3(3%)

BENEFICIARY DOES NOT REMEMBER: 31 (5%)€
 H(M)       H(T)        CAC       Av- Med                    Health Op     CFL€
10(7%)     4(4%)      5(6%)       1(1 %)                     7(7%)       4(4%)€

                         Number Not Responding: 57 (9%)
 H(M)         H(T)              CAC          Av-Med          Health Op    CFL€
5(4%)        6(6%)             12(15%)       6(7%)           18(17%)     10(10%)€


Who filled out the application form?€
SALESPERSON: 323 (54%)€
 H(M)       H(T)                 CAC               Av- Med   Health Op    CFL
80(59%)      61(65%)            42(52%)            40(43%)   37(36%)     63(66%)

BENEFICIARY: 188 (31%)
 H(M)             H(T)           CAC               Av- Med   Health Op    CFL
39(29%)      20(21 %)           15(19%)            40(43%)   52(50%)     22(23%)

FRIEND OR RELATIVE: 24 (4%)
  H(M)      H(T)         CAC                       Av- Med   Health Op    CFL€
 3(2%)     4(4%)        5(6%)                      4(4%)     4(4%)       4(4%)€

DOCTOR' S OFFICE: 5 (1%)
 H(M)        H(T)                CAC               Av- Med   Health Op     CFL€
                                2(2%)                                    3(3%)€

SOCIAL SECURITY OFFICE:         2 (0.3%)

 H(M)        H(T)                CAC               Av- Med   Health Op    CFL€
                                 1(1 %)                                  1(1 %)€

OTHER: 28 (5%)
 H(M)        H(T)                CAC               Av-Med    Health Op     CFL
5(4%)       4(4%)               11(14%)            4(4%)     2(2%)       2(2%)

BENEFICIARY DOES NOT REMEMBER: 28 (5%)
 H(M)       H(T)        CAC      Av- Med                     Health Op    CFL
8(6%)      5(5%)       3(4%)     3(3%)                       8(8%)       1(1%)

                         Number Not Responding: 3 (0.4%)
 H(M)         H(T)               CAC         Av- Med         Health Op    CFL€
                                2(2%)        1(1 %)€


a. When you signed the application, was it clear to you that you were emolling€
in a Health Maintenance Organization?€
YES: 525 (87%)€
 H(M)        H(T)               CAC                Av- Med   Health Op   CFL€


                                          B - 4€
122(90% )      88(94%)         67(83%)           80(87%)        97(94%)     71(74% )

NO: 66 (11%)
 H(M) H(T)
13(10%) 5(5%)
                               CAC
                               11(14%)
                                                 Av- Med        Health Op   CFL
                                                 10(11%)        5(5%)       22(23%)


 H(M) H(T) CAC
BENEFICIARY DOES NOT REMEMBER SIGNING APPLICATION: 5 (1%)

           1(1%)Av- Med Health Op 3(3%)
                                  CFL
                 1(1%)
 H(M)          H(T)
            Number Not Responding: 5 (1
                     CAC Av-
               1(1%) 2(2%)                          Med
                                                 1(1%)
                                                                Health Op
                                                                1(1%)
                                                                            CFL



b. Do you recall what you thought you were           signing?
   (Asked only of the 66 who answered NO to 6.

NO: 18 (27%)
  H(M)          H(T)            CAC              Av- Med        Health Op     CFL
 5(38%)                        6(55%)            1(10%)                     6(27%)

YES: 46 (70%)
 H(M)         H(T)              CAC              Av-Med         Health Op    CFL
6(46%)         5(100%)         5(45%)            9(90%)         5(100%)     16(73%)

                       Number Not Responding: 2 (3%)€
 H(M)           H(T)          CAC          Av- Med              Health Op    CFL
2(15%)


c. What did you think you were signing?
  (Asked only of the 46 who answered YES to 6.

APPLICATION FOR SUPPLEMENTAL INSURANCE: 15 (33%)
  H(M)        H(T)      CAC       Av- Med     Health Op                       CFL
 1(17%)      1(20%)    2(40%)     3(33%)      3(60%)                        5(31%)

APPLICATION FOR ADDITIONAL BENEFITS: 8 (17%)
 H(M)        H(T)       CAC       Av- Med                       Health Op    CFL
3(50%)      1(20%)                2(22%)                                    2(13%)
FORM FOR MEDICARE/GOVERNMENT: 7 (15%)
 H(M)       H(T)     CAC        Av- Med                         Health Op    CFL
           1(20%)    3(60%)     2(22%)                                      1(6%)

 H(M)         H(T)            CAC               Av- Med         Health Op    CFL
             1(20%)           3(60%)            2(22%)
OTHER: 5 (11%)
 H(M)         H(T)            CAC               Av- Med         Health Op    CFL
1(17%)       1(20%)                                                         3(19%)


 H(M)
1(17%)
               H(T) CAC Av-
               1(20%)
                       Number Not Responding: 11 (24%)
                                               Med
                                           2(22%)
                                                                Health Op
                                                                2(40%)
                                                                              CFL
                                                                            5(31%)


                                       B - 5

When you signed the application, did you know that unless it was an€
emergency, or you were outside the service area and urgently needed care, you
could only go to (Name of HMO' s) doctors, hospitals, and medical providers?
YEs: 527 (88%)
 H(M)             H(T)            CAC           Av-Med    Health Op    CFL
 120(89%)        88(94%)         68(84%)        78(85%)   98(95%)     75(78%)

NO: 69 (11%)
 H(M)             H(T)            CAC           Av- Med   Health Op    CFL
15(11%)          6(6%)           10(12%)        13(14%)   4(4%)       21(22%)

                          Number Not Responding: 5 (1%)
 H(M)             H(T)            CAC         Av- Med     Health Op    CFL€
                                 3(4%)        1(1 %)      1(1%)€


When enrolled in the HMO, did the salesperson ask if you:€
a. Were in good health?
YEs: 282 (47%)
 H(M)            H(T)            CAC            Av- Med   Health Op    CFL
76(56%)         50(53%)         31(38%)         36(39%)   45(44%)     44(46%)

NO: 181 (30%)
 H(M)            H(T)            CAC            Av-Med    Health Op    CFL
31(23%)         23(24%)         39(48%)         24(26%)   33(32%)     31(32%)

BENEFICIARY DOES NOT REMEMBER: 127 (21 %)
 H(M)       H(T)        CAC      Av- Med                  Health Op    CFL
28(21 %)   21(22%)     9(11%)    29(32%)                  19(18%)     21(22%)

                         Number Not Responding: 11 (2%)
 H(M)            H(T)            CAC         Av-Med       Health Op    CFL
                                2(2%)        3(3%)        6(6%)


b. Had health problems?€
YES: 246 (41%)€
 H(M)            H(T)            CAC            Av- Med   Health Op    CFL
66(49%)         47(50%)         27(33%)         37(40%)   37(36%)     32(33%)

NO: 229 (38%)
 H(M)            H(T)            CAC            Av- Med   Health Op    CFL
43(32%)         28(30%)         44(54%)         28(30%)   42(41%)     44(46%)

BENEFICIARY DOES NOT REMEMBER: 117 (19%)
 H(M)       H(T)        CAC      Av- Med                  Health Op    CFL
26(19%)    19(20%)     8(10%)    26(28%)                  18(17%)     20(21 %)

                         Number Not Responding: 9 (1%)
 H(M)            H(T)           CAC          Av- Med      Health Op    CFL€


                                       B - 6€
                                2(2%)            1(1%)     6(6%)


c. Were being treated by a doctor?
YEs: 252 (42%)
 H(M)            H(T)           CAC              Av- Med   Health Op        CFL
67(50%)         49(52%)        27(33%)           35(38%)   34(33%)         40(42%)

NO: 201 (33%)
 H(M)            H(T)           CAC              Av- Med   Health Op        CFL
41(30%)         20(21%)        38(47%)           26(28%)   41(40%)         35(36%)

BENEFICIARY DOES NOT REMEMBER: 138 (23%)
 H(M)       H(T)        CAC      Av- Med                   Health Op        CFL
27(20%)    25(27%)     14(17%)   30(33%)                   21(20%)         21(22%)

                Number Not Responding: 10 (2%)
 H(M)            H(T)          CAC          Av- Med        Health Op        CFL
                              2(2%)         1(1%)          7(7%)


d. Needed medical       services at the time?
YES: 177 (29%)
 H(M)            H(T)           CAC              Av- Med   Health Op        CFL
48(36%)         30(32%)        19(23%)           23(25%)   25(24%)         32(33%)

NO: 263 (44%)
 H(M)            H(T)           CAC              Av-Med    Health Op        CFL
60(44%)         37(39%)        45(56%)           27(29%)   52(50%)         42(44%)

BENEFICIARY DOES NOT REMEMBER: 140 (23%)
 H(M)       H(T)        CAC      Av- Med                   Health Op        CFL
26(19%)    27(29%)     15(19%)   31(34%)                   19(18%)         22(23%)

                        Number Not Responding: 21 (3%)€
 H(M)            H(T)           CAC         Av-Med         Health Op        CFL
1(1%)                          2(2%)        11(12%)        7(7%)


Did the salesperson push you or pressure you to join (Name of HMO)?
YES: 21 (3%)
 H(M)           H(T)            CAC              Av- Med   Health Op        CFL
5(4%)           5(5%)          2(2%)             4(4%)             5(5%)

NO: 564 (94%)
 H(M)            H(T)           CAC              Av-Med    Health Op        CFL
130(96%)        88(94%)        73(90%)           87(95%)   95(92%)         91(95%)

                        Number Not Responding: 16 (3%)
 H(M)            H(T)          CAC          Av- Med        Health Op        CFL
                 1(1 %)       6(7%)         1(1%)          8(8%)



                                        B - 7

10.   Were you offered any incentives, like a gift, to join (Name of HMO)?
      YEs: 0
       H(M)            H(1)             CAC          Av-Med       Health Op      CFL


      NO:    589 (98%)
       H(M)          H(1)               CAC         Av- Med       Health Op      CFL
      135(100%)     94(100%)           76(94%)      91(99%)       97(94%)       96(100%)

                                Number Not Responding: 12 (2%)
       H(M)            H(1)             CAC         Av- Med       Health Op      CFL
                                       5(6%)        1(1 %)        6(6%)


11.   I'm going to read to you some methods a salesperson might use to try to get
      people to join an HMO. Did the salesperson that signed you up use any of
      these?

      a. Keep encouraging        you to join even if you said you were not interested?
      YEs: 20(3%)
       H(M)            H(1)           CAC           Av- Med       Health Op      CFL
                      7(7%)           3(4%)         1(1%)         2(2%)         7(7%)

      NO: 540 (90%)
       H(M)            H(1)           CAC           Av- Med       Health Op      CFL
      132(98%)        85(90%)         67(83%)       86(93%)       89(86%)       81(84%)

      BENEFICIARY DOES NOT REMEMBER: 22 (4%)
       H(M)       H(1)        CAC      Av- Med                    Health Op      CFL
      3(2%)      1(1 %)      4(5%)     3(3%)                      3(3%)         8(8%)

                             Number Not Responding: 19 (3%)€
       H(M)            H(1)         CAC          Av- Med          Health Op      CFL
                      1(1 %)       7(9%)         2(2%)            9(9%)


      b. Promise to    leave as soon as you signed?

      YES: 37 (6%)
       H(M)            H(1)            CAC          Av- Med       Health Op      CFL
      5(4%)           9(10%)          6(7%)         4(4%)         8(8%)         5(5%)

      NO: 487 (81%)
       H(M)            H(1)            CAC          Av- Med       Health Op      CFL
      123(91 %)       74(79%)         47(58%)       81(88%)       78(76%)       84(88%)

      BENEFICIARY DOES NOT REMEMBER: 41 (7%)
       H(M)       H(1)        CAC      Av- Med                    Health Op      CFL
      7(5%)      6(6%)       11(14%)     4(4%)                    6(6%)         7(7%)

                               Number Not Responding: 36 (6%)€
       H(M)            H(1)           CAC          Av- Med        Health Op      CFL



                                              B-8
                 5(5%)          17(21 %)      3(3%)        11(11 %)


c. Tell   you it would be more difficult to sign up if you waited until later?
YEs: 24 (4%)
 H(M)            H(T)           CAC           Av-Med       Health Op       CFL
4(3%)           8(9%)                         3(3%)        5(5%)         4(4%)

NO: 518 (86%)
 H(M)            H(T)           CAC           Av- Med      Health Op      CFL
123(91 %)       77(82%)         67(83%)       83(90%)      83(81 %)      85(89%)

BENEFICIARY DOES NOT REMEMBER: 39 (6%)
 H(M)       H(T)        CAC      Av- Med                   Health Op      CFL
8(6%)      7(7%)       7(9%)     4(4%)                     6(6%)         7(7%)

                         Number Not Responding: 20 (3%)
 H(M)            H(T)           CAC          Av-Med        Health Op      CFL
                2(2%)          7(9%)         2(2%)         9(9%)


   Tell you it would be hard to get medical care if you did not join?
YES: 8 (1%)
  H(M)           H(T)          CAC           Av- Med       Health Op      CFL
 1(1%)          3(3%)                                      1(1 %)        3(3%)

NO: 546 (91%)
 H(M)            H(T)          CAC           Av- Med       Health Op      CFL
129(%%)         88(94%)        66(81 %)      87(95%)       91(88%)       85(89%)

BENEFICIARY DOES NOT REMEMBER: 28 (5%)
 H(M)       H(T)       CAC       Av- Med                   Health Op      CFL
5(4%)      2(2%)       8(10%)    3(3%)                     2(2%)         8(8%)

                       Number Not Responding: 19 (3%)
 H(M)            H(T)        CAC           Av- Med         Health Op      CFL
                 1(1%)       7(9%)         2(2%)           9(9%)


e. Is there anything else you would like to say about the methods the
salesperson used to try to get you to sign up?
YES: 88 (15%)
 H(M)             H(T)         CAC           Av- Med      Health Op       CFL
23(17%)         26(28%)        12(15%)       7(8%)         11(11%)       9(9%)

NO: 490 (82%)
 H(M)             H(T)         CAC           Av- Med      Health Op       CFL
112(83%)        67(71%)        58(72%)       83(90%)      83(81 %)       87(91%)

                      Number Not Responding: 23 (4%)
 H(M)            H(T)       CAC           Av-Med          Health Op       CFL
                1(1%)       11(14%)       2(2%)           9(9%)


                                       B-9
12.	   After you signed the application, did you know you could change your mind
       and " back out" before the enrollment took effect?

       YEs: 480 (80%)
        H(M)            H(T)            CAC               Av- Med   Health Op    CFL
       104(77%)        86(91%)         58(72%)            75(82%)   93(90%)     64(67%)

       NO: 109 (18%)
        H(M)             H(T)           CAC               Av-Med    Health Op    CFL
       29(21 %)         6(6%)          20(25%)            14(15%)   8(8%)       32(33%)

                                 Number Not Responding: 12 (2%)€
        H(M)            H(T)            CAC          Av- Med        Health Op    CFL
       2(1%)           2(2%)           3(4%)         3(3%)          2(2%)



13.    At the time you signed up, did you know:

       a. The date your    enrollment would take effect?
       YEs: 511 (85%)
        H(M)            H(T)            CAC               Av- Med   Health Op    CFL
       115(85%)        87(93%)         68(84%)            78(85%)   92(89%)     71(74%)

       NO: 34 (6%)
        H(M)            H(T)             CAC              Av- Med   Health Op    CFL
       12(9%)          3(3%)            1(1 %)            7(8%)     2(2%)       9(9%)

       BENEFICIARY DOES NOT REMEMBER: 44 (7%)
        H(M)        H(T)        CAC     Av- Med                     Health Op    CFL
       7(5%)       2(2%)      9(11 %)   4(4%)                       6(6%)       16(17%)

                                Number Not Responding: 12 (2%)€
        H(M)            H(T)           CAC          Av- Med         Health Op    CFL
       1(1%)           2(2%)          3(4%)         3(3%)           3(3%)


       b. How to get medical services?
       YES: 523 (87%)
        H(M)            H(T)            CAC               Av-Med    Health Op    CFL
       119(88%)        83(88%)         63(78%)            83(90%)   94(91 %)    81(84%)

       NO: 43 (7%)
        H(M)             H(T)           CAC               Av- Med   Health Op    CFL
       10(7%)           6(6%)          8(10%)             3(3%)     5(5%)       11(11%)

       BENEFI CIAR Y DOES NOT REMEMBER: 22 (4%)
        H(M)         H(T)        CAC      Av- Med                   Health Op    CFL
       5(4%)        3(3%)       7(9%)     2(2%)                     1(1 %)      4(4%)




                                                 B - 10
                          Number Not Responding: 13 (2%)€
 H(M)           H(T)             CAC          Av- Med       Health Op    CFL
 1(1 %)        2(2%)            3(4%)         4(4%)         3(3%)


c. What you should do        in emergency situations?
YEs: 482 (80%)
 H(M)           H(T)            CAC             Av- Med     Health Op    CFL
117(87%)       76(81%)          62(77%)         69(75%)     87(84%)     71(74%)

NO: 76 (13%)
 H(M)             H(T)            CAC           Av- Med     Health Op    CFL
15(11%)        12(13%)           8(10%)         13(14%)     9(9%)       19(20%)

BENEFICIARY DOES NOT REMEMBER: 29 (5%)
 H(M)       H(T)        CAC      Av- Med                    Health Op    CFL
2(1%)      4(4%)       8(10%)    6(7%)                      4(4%)       5(5%)

                         Number Not Responding: 14 (2%)€
 H(M)           H(T)            CAC          Av- Med        Health Op    CFL
 1(1%)         2(2%)           3(4%)         4(4%)          3(3%)       1(1%)


d What to do if you needed to see a specialist?

YES: 454 (76%)
 H(M)           H(T)             CAC            Av- Med     Health Op    CFL
101(75%)       66(70%)          57(70%)         79(86%)     94(91%)     57(59%)

NO: 95 (16%)
 H(M)             H(T)           CAC            Av- Med     Health Op    CFL
27(20%)        20(21 %)         12(15%)         6(7%)       4(4%)       26(27%)

BENEFICIARY DOES NOT REMEMBER: 38 (6%)
 H(M)       H(T)        CAC      Av- Med                    Health Op    CFL
6(4%)      6(6%)       9(11%)    3(3%)                      2(2%)       12(13%)

                         Number Not Responding: 14 (2%)€
 H(M)           H(T)            CAC          Av- Med        Health Op    CFL
1(1%)          2(2%)           3(4%)         4(4%)          3(3%)       1(1%)


e. How to get other information you needed?
YES: 426 (71 %)
 H(M)           H(T)             CAC            Av- Med     Health Op    CFL
98(73%)        70(74%)          53(65%)         72(78%)     86(83%)     47(49%)

NO: 98 (16%)
 H(M)             H(T)           CAC            Av- Med     Health Op    CFL
21(16%)        12(13%)          11(14%)         12(13%)     13(13%)     29(30%)

BENEFICIARY DOES NOT REMEMBER: 61 (10%)
 H(M)       H(T)        CAC      Av- Med                    Health Op    CFL


                                      B - 11

       13(10%)          10(11%)      14(17%)        4(4%)     1(1%)         19(20%)

                             Number Not Responding: 16 (3%)
         H(M)           H(1)         CAC         Av- Med      Health Op      CFL
        3(2%)          2(2%)       3(4%)         4(4%)        3(3%)         1(1%)


       f. How to disenroII, or "get out" of the HMO?
       YEs: 368 (61%)
        H(M)            H(1)         CAC            Av- Med   Health Op     CFL
       80(59%)         60(64%)      48(59%)         55(60%)   74(72%)      51(53%)

       NO: 175 (29%)
        H(M)            H(1)         CAC            Av- Med   Health Op     CFL
       43(32%)         24(26%)      21(26%)         27(29%)   24(23%)      36(38%)

       BENEFICIARY DOES NOT REMEMBER: 45 (7%)
        H(M)       H(1)        CAC       Av- Med              Health Op     CFL
       11(8%)     8(9%)      9(11 %)     6(7%)                3(3%)        8(8%)

                             Number Not Responding: 13 (2%)
        H(M)            H(1)        CAC          Av-Med       Health Op     CFL
        1(1 %)         2(2%)       3(4%)         4(4%)        2(2%)        1(1%)


       g. How to appeal decisions (Name of HMO) makes concerning your medical
       care?
       YES: 219 (36%)
        H(M)            H(1)         CAC            Av- Med   Health Op     CFL
       43(32%)         39(41%)      23(28%)         35(38%)   51(50%)      28(29%)

       NO: 259 (43%)
        H(M)            H(1)         CAC            Av- Med   Health Op     CFL
       68(50%)         39(41 %)     28(35%)         38(41%)   36(35%)      50(52%)

       BENEFICIARY DOES NOT REMEMBER: 109 (18%)
        H(M)       H(1)        CAC      Av-Med                Health Op     CFL
       23(17%)    14(15%)     26(32%)   15(16%)               14(14%)      17(18%)

                             Number Not Responding: 14 (2%)
        H(M)            H(1)        CAC          Av- Med      Health Op     CFL
       1(1%)           2(2%)       4(5%)         4(4%)        2(2%)        1(1%)


14.	   In addition to the things I just mentioned, is there anything you later learned
       about being in an HMO that you wished you had known before you signed up?
       YES: 100 (17%)
        H(M) H(1)
       27(20%) 19(20%)
                                     CAC
                                     9(11 %)
                                                    Av- Med
                                                    16(17%)
                                                              Health Op     CFL
                                                              16(16%)      13(14%)

       NO: 483 (80%)
        H(M) H(1)                    CAC            Av- Med   Health Op     CFL


                                           B - 12
       106(79%)      73(78%)        66(81 %)          72(78%)   84(82%)     82(85%)


        H(M)
       2(1%)
                     H(T) 6(7%)
                     2(2%)
                             Number Not Responding: 18 (3%)
                           CAC Av-                   Med
                                                 4(4%)
                                                                Health Op
                                                                3(3%)
                                                                             CFL
                                                                            1(1%)


15.€   Before you signed up for (Name of HMO), or at the time you signed up, did
       the salesperson give you a Member s Handbook or other written material that
       explained how the HMO worked?
       YES, SALESPERSON LEFf SUCH MATERIAL: 443 (74%)
        H(M)        H(T)       CAC        Av- Med               Health Op    CFL
       114(84%)    80(85%)    57(70%)     71(77%)               73(71 %)    48(50%)

       SALESPERSON DID NOT LEAVE MATERIAL, BUT IT
       WAS MAILED: 83 (14%)
        H(M)       H(T)        CAC      Av- Med                 Health Op    CFL
        10(7%)     8(9%)      9(11%)    14(15%)                 16(16%)     26(27%)



       4(3%) H(T) 2(2%)
       SALESPERSON DID NOT LEAVE ANY MATERIAL: 19 (3%)
       H(M) 3(3%)  CAC Av-Med                        Health Op
                                                      2(2%)
                                                                             CFL
                                                                            8(8%)

       SALESPERSON LEFf SOME MATERIAL, BUT BENEFICIARY DOES NOT

       H(M) H(T) 3(4%)
       REMEMBER WHAT IT WAS: 15 (2%)

       2(1%)     CAC Av-Med Health Op CFL
                                     10(10%)

       BENEFICIARY DOES NOT REMEMBER IF RECEIVED ANY


       3(2%) H(T) 2(2%)
       MATERIAL: 13 (2%)
       H(M) 1(1%)  CAC Av-Med
                        2(2%)                      Health Op
                                                   2(2%)
                                                                             CFL
                                                                            3(3%)


        H(M)
       2(1%)
                     H(T) 8(10%)
                     2(2%)
                             Number Not Responding: 28 (5%)
                           CAC Av-                   Med
                                                 5(5%)
                                                                Health Op
                                                                10(10%)
                                                                             CFL
                                                                            1(1%)


16.€   Were you later mailed a notification of the date your enrollment in (Name of
       HMO) began?
       YES: 512 (85%)
        H(M)          H(T)           CAC              Av- Med   Health Op    CFL
       111(82%)      81(86%)        66(81 %)          78(85%)   95(92%)     81(84%)

       NO: 22 (4%)
        H(M)          H(T)           CAC              Av- Med   Health Op    CFL
       7(5%)         3(3%)          2(2%)             2(2%)     1(1 %)      7(7%)


        H(M)            H(T)
       BENEFICIARY DOES NOT REMEMBER: 51 (8%)
                      CAC Av-Med
       14(10%) 9(10%) 9(11%) 8(9%)
                                                                Health Op
                                                                4(4%)
                                                                             CFL
                                                                            7(7%)

                             Number Not Responding: 16 (3%)€


                                            B - 13

         H(M)            H(T)           CAC             Av- Med   Health Op    CFL
        3(2%)         1(1%)            4(5%)            4(4% )    3(3%)       1(1%)


17.	   Thinlrin g about the things the salesperson told you about (Name of HMO),
       would you say the salesperson gave you accurate information?
       YEs: 504 (84%)
        H(M)           H(T)             CAC             Av- Med   Health Op    CFL
       120(89%)       88(94%)          63(78%)          76(83%)   87(84%)     70(73%)

       NO: 34 (6%)
        H(M)           H(T)             CAC             Av- Med   Health Op    CFL
       6(4%)          3(3%)            7(9%)            6(7%)     2(2%)       10(10%)

       DO NOT KNOW: 18 (3%)
        H(M)     H(T)                   CAC             Av- Med   Health Op    CFL
       5(4%)                           2(2%)            3(3%)                 8(8%)

       OTHER RESPONSES: 20 (3%)
        H(M)       H(T)         CAC                     Av-Med    Health Op    CFL
       2(1%)      1(1%)        2(2%)                    2(2%)     8(8%)       5(5%)

       BENEFICIARY DOES NOT REMEMBER: 5 (1%)
        H(M)       H(T)       CAC        Av- Med                  Health Op    CFL
                                       3(4%)            1(1%)                 1(1 %)

                                Number Not Responding: 20 (3%)
        H(M)           H(T)            CAC          Av- Med       Health Op    CFL
       2(1 %)         2(2%)           4(5%)         4(4%)         6(6%)       2(2%)



18.	   When the salesperson talked to you about enrolling in (Name of HMO), did he
       or she explain that when you are in an HMO...
       a. Unless it was an emergency, you needed to get (Name of HMO)'s
       permission before you went to doctors or hospitals not part of (Name of
       HMO)?
       YES: 428 (71 %)
        H(M)           H(T)            CAC              Av-Med    Health Op    CFL
       101(75%)       72(77%)         49(60%)           67(73%)   74(72%)     65(68%)

       NO: 87 (14%)
        H(M)             H(T)           CAC             Av- Med   Health Op    CFL
       20(15%)        12(13%)          15(19%)          11(12%)   11(11%)     18(19%)

       BENEFICIARY DOES NOT REMEMBER: 59 (10%)
        H(M)       H(T)       CAC        Av- Med                  Health Op    CFL
       12(9%)         7(7%)       10(12%)       10(11%)           9(9%)       11(11%)
                            Number Not Responding: 27 (4%)
        H(M)           H(T)        CAC          Av- Med           Health Op     CFL
       2(1 %)         3(3%)       7(9%)         4(4%)             9(9%)       2(2%)



                                               B - 14
      b. H you did notget (Name of HMO)'s permission, and it was not an€
      emergency, you would have to pay for visits to doctors and hospitals that are€
      not affiliated with (Name of HMO)?
      YEs: 399 (66%)
       H(M)            H(T)           CAC              Av- Med   Health Op    CFL
      100(74%)        67(71%)        45(56%)           66(72%)   62(60%)     59(61%)

      NO: 112 (19%)
       H(M)            H(T)           CAC              Av- Med   Health Op    CFL
      18(13%)         17(18%)        17(21%)           13(14%)   20(19%)     27(28%)

      BENEFICIARY DOES NOT REMEMBER: 63 (10%)
       H(M)       H(T)        CAC      Av- Med                   Health Op    CFL
      15(11 %)    7(7%)      12(15%)   9(10%)                    12(12%)     8(8%)

                              Number Not Responding: 27 (4%)
       H(M)            H(T)           CAC         Av-Med         Health Op    CFL€
      2(1%)           3(3%)         7(9%)         4(4%)          9(9%)       2(2%)€


      c. Medicare would be paying (Name of HMO) for your medical care and€
      would not make payments directly to doctors?€
      YES: 399 (66%)
       H(M)            H(T)          CAC               Av- Med   Health Op    CFL
      93(69%)         69(73%)       48(59%)            70(76%)   65(63%)     54(56%)

      NO: 106 (18%)
       H(M)            H(T)           CAC              Av-Med    Health Op    CFL
      23(17%)         13(14%)        16(20%)           10(11%)   18(17%)     26(27%)

      BENEFICIARY DOES NOT REMEMBER: 68 (11%)
       H(M)       H(T)        CAC      Av-Med                    Health Op    CFL
      17(13%)     9(10%)     10(12%)   7(8%)                     11(11%)     14(15%)

                      Number Not Responding: 28 (5%)
       H(M)            H(T)          CAC          Av- Med        Health Op    CFL
      2(1 %)          3(3%)         7(9%)         5(5%)          9(9%)       2(2%)

19.   Since you have been in (Name of HMO), have there been times when you
      needed to see a doctor, but haven t been able to?

      YES: 56 (9%)
       H(M)            H(T)           CAC              Av-Med    Health Op    CFL
      14(10%)         13(14%)        6(7%)             7(8%)     9(9%)       7(7%)

      NO: 529 (88%)
       H(M)            H(T)          CAC         Av- Med         Health Op    CFL
      119(88%)        79(84%)      71(88%)       80(87%)         92(89%)     88(92%)
                             Number Not Responding: 16 (3%)
       H(M)            H(T)         CAC          Av- Med         Health Op    CFL
      2(1%)           2(2%)        4(5%)         5(5%)           2(2%)       1(1 %)



                                             B - 15€
20.€   Since you have been enrolled in (Name of HMO), have you been told that
       some services you wanted were not covered?
       YEs: 80 (13%)
        H(M)           H(1)           CAC           Av- Med    Health Op    CFL
       21(16%)         13(14%)       8(10%)         15(16%)    15(15%)     8(8%)

       NO: 503 (84%)
        H(M)           H(1)           CAC           Av- Med    Health Op    CFL
       111(82%)        79(84%)       69(85%)        72(78%)    86(83%)     86(90%)

                             Number Not Responding: 18 (3%)
        H(M)           H(1)         CAC          Av-Med        Health Op    CFL
       3(2%)           2(2%)       4(5%)         5(5%)         2(2%)       2(2%)


21.    How would you compare the care you have received while in (Name of HMO)
       with the medical care you received before you joined? Would you say the care
       you have received while in (Name of HMO) is?

        H(M) H(1)
       BEITER THAN YOUR PREVIOUS CARE: 116 (19%)

       30(22%) 13(14%) 18(22%) 16(16%)
                                      CAC Av-
                                            Med                Health Op
                                                               16(15%)
                                                                            CFL
                                                                           23(24%)


        H(M) H(1)
       ABOUT THE SAME AS YOUR PREVIOUS CARE: 245 (41%)
                                      CAC Av-Med
       41(30%) 47(50%) 31(38%) 46(50%) 50(49%)
                                                     Health Op              CFL
                                                                           30(31%)


        H(M) H(1)
       NOT AS GOOD AS YOUR PREVIOUS CARE: 73 (12%)

       20(15%) 18(19%) 9(11%) 5(5%)
                                      CAC Av-Med               Health Op
                                                               8(8% )
                                                                            CFL
                                                                           13(14%)


        H(M) H(1)
       BENEFICIARY CAN'T OR WON' T COMPARE CARE: 147 (24%)

       41(30%) 14(15%) 18(22%) 20(22%)
                                      CAC Av-Med       Health Op
                                                       27(26%)
                                                                            CFL
                                                                           27(28%)


        H(M)
       3(2% )
                       H(1) 5(6%)
                       2(2%)
                              Number Not Responding: 20 (3%)
                             CAC Av-                  Med
                                                  5(5%)
                                                               Health Op
                                                               2(2%)
                                                                            CFL
                                                                           3(3%)




                                          B - 16

                              APPENDIX C

     RESPONSES TO FACE-TO-FACE INTERVIEWS WITII BENEFICIARIES€

The following are the results of face- to-face interviews with 22 of 26 beneficiaries who€
were identified by HCF A as having enrolled in HMOs an excessive number of times.€
Four beneficiaries could not be located. Each beneficiary was shown his/her HMO€
enrollment history which identified the current and all previous enrollments.€

RESULTS: PERSONS INTERVIEWED:€

               BENEFICIARIES€
               RESPONSffiLE PARTY: Spouse€


I would like to ask you some questions about your experiences with Health€
Maintenance Organizations.€


1.   Are you a year-round Florida resident or do you live in Florida only part of the year?€

     RESPONSES 22 - LIVE IN FLORIDA YEAR- ROUND€


2.   Are you currently enrolled in an HMO?€

     RESPONSES 1 - NO - (GO TO #4)€
                     19 - YES€
                     2 - DON'T KNOW€
3.   In which HMO are you (currently) enrolled?€

     RESPONSES 10 - Humana Gold Plus Plan (Dade , Broward , & Palm Beach)€
                     5 - CAC- RAMSAY€
                     5 - CareFlorida€
                     2 - DON'T KNOW€

       Show and briefly explain to the beneficiary his/her HMO enrollment histo€

4.   Do you remember signing an application form to enroll in these HMO plans?€

     RESPONSES . 5 - NO€
                 17 - YES€



                                           C - 1€
5.   What were the reasons you changed from each of these plans (PLANS IDENTIFIED
     IN QUESTION      #4)to another?

     REASONS          7 - DOES NOT KNOW WHY
                      11 - HMO REPRESENTATIVE CONVINCED BENEFICIARY
                          TO CHANGE
                      4 - UNHAPPY WITH SERVICES OF HMO

6.   Did any of these plans make a special offer; give you a free gift; or give you money to
     enroll in their plan?

     RESPONSES 4 - BENEFICIARY DOESN'T REMEMBER
              18 - NO


7.   When you signed the application form, was it clear that by enrolling in this new
     HMO, you would be automatically   disenrolled from your current HMO? (PROVIDE
     ILLUSTRATION TO BENEFICIARY BASED ON HIS/HER HMO
     ENROLLMENT HISTORY AND INDICATE HMO BY NAME)

     RESPONSES         8 - BENEFICIARY DOESN'T REMEMBER
                       5 - YES , IT WAS CLEAR
                       9 - NO , IT WAS NOT CLEAR

Some people give the following reasons for changing health care    plans.   Have you ever
changed plans because of any of these reasons?


8.   Because you needed to see a doctor more often than your plan would allow?€

     RESPONSES 5 - BENEFICIARY DOESN'T REMEMBER
              16 - NO
                             YES

9.   Have you ever changed plans because you needed services of a specialist and those
     services were not available in   your plan?

     RESPONSES 4 - BENEFICIARY DOESN'T REMEMBER
              18 - NO
                             YES


10. Have you ever changed plans because you wanted to use a specific doctor and he/she€
    was not in your plan?€



                                              C - 2€
      RESPONSES 4 - BENEFICIARY DOESN'T REMEMBER€
               16 - NO€
                                   2 - YES€

11.   Have you ever changed plans because your doctor left the plan and you wanted to€
      continue with that doctor?€

      RESPONSES 4 - BENEFICIARY DOESN' T REMEMBER€
                15 - NO€
                    YES€


12.   Have you ever changed plans because your doctor advised you to change to another€
      plan?€

      RESPONSES 3 - BENEFICIARY DOESN'T REMEMBER€
               16 - NO€
                                            YES€

13.                                  an HMO sales representative advised you to€
      Have you ever changed plans because

      join a new plan? (NOTE: A SALESMAN COULD ADVISE AN ENROLLEE TO

      JOIN HIS PLAN       JOIN ANOTHER PLAN IN ORDER TO DISENROLL A€
      BENEFICIARY. €




      RESPONSES 5 - BENEFICIARY DOESN'T REMEMBER€
                1- NO€
                                  16 - YES€
                                              (A) €   What HMO did that salesman represent?€

                                                      RESPONSES€

                                                      16 - BENEFICIARY DOESN'T REMEMBER€

                                              (B)€    Do you know the salesman s name?€

                                                      RESPONSES€

                                                      16 - NO€

                                              (C)€    Which plan did he/she suggest you to enroll in?€

                                                      RESPONSES€

                                                      16 - BENEFICIARY DOESN' T REMEMBER€




                                                            C - 3€
14.   Have you ever changed plans because a
                                                            friend or relative suggested that you join a
      different plan?

      RESPONSES                    4 - BENEFICIARY DOESN'T REMEMBER€
                                  17 - NO€
                                       YES€


15.   Have you ever changed plans because you didn t like the plan you were in?€

      RESPONSES                    4 - BENEFICIARY DOESN' T REMEMBER
                                  12 - NO
                                  6 - YES
                                              (A)   IF YES, Which plan did you dislike and why?

                                                    RESPONSES€

                                                    6 - BENEFICIARY DOESN' T REMEMBER

16.   Have you changed health care plans for any other reason we did not mention?€

      RESPONSES                    7 - BENEFICIARY DOESN'T REMEMBER€
                                  15 - NO€


17.   Do you plan to change from (CURRENT HMO PLAN) to another plan?€

      RESPONSES                   4 - BENEFICIARY DOESN'T REMEMBER€
                                 17 - NO€
                                      YES€


18.   Would you like to tell us anything else regarding why you have changed HMOs?

      RESPONSES                  18 - NO FURTHER COMMENT WAS MADE€
                                        YES€




                                                          C - 4€
                                           APPENDIX D€
                     ANALYSIS OF RESPONDENTS VS. NONRESPONDENTS€


Much of the information regarding marketing practices of South Florida HMOs was€
gathered directly from Medicare beneficiaries who had recently enrolled in those€
HMOs. A statistically representative sample of the recent-enrollee population was€
selected to be interviewed by phone.€

A response rate of 72 percent was achieved. However, the possibility of a€
nonresponse bias must be considered. That is , it must be assured that the survey€
results would have been the same if theentire sample had been interviewed.€

Since it is not possible to know how those not interviewed would have responded to€
the questions , certain assumptions must be made , based on what is known about the€
nonrespondents.€

The data base from which the sample was                    drawn contains certain demographic€
information for each                individual , notably gender and age. With these data elements , it€
is then possible to compare the demographic characteristics of nonrespondents to€
respondents.€

If the characteristics are different , it is necessary to determine whether these€
characteristics correlate with certain responses from the individuals interviewed.€
Assuming the same correlations exist for the nonrespondents, it can be determined€
whether survey results would have been different if all individuals in the sample had€
responded.€

   ARIABLES ANALYZED€

For this analysis , three characteristics of individuals in the sample were used: age€
gender , and HMO in which the individual is/was enrolled. The frequencies of these€
characteristics in the  respondent                                      nonrespondent€
                                                group were compared against the

group.€

Where frequencies differed among the two groups (and it might be suspected that€
different survey results would be found if all persons in the sample had been€
interviewed), it was determined if any of these three characteristics affected responses€
to our interview questions.€


Three questions on the survey instrument were chosen for comparison of responses:€




                                                             D - 1€
Q #2. Did you call ( Name of HMO ) to get information , or did ( Name of HMO
       contact you to ask you to enroll?

       Possible
       answers:             Beneficiary initiated contact
                            HMO initiated contact
                            Beneficiary does not remember€


Q #6. When you     signed the application form , was it clear to you that you were
       enrolling in a Health Maintenance Organization?

       Possible€
       answers:             Yes€

                            Beneficiary does not remember signing application€


Q #7. When you      signed the application form , did you know that unless it was an
       emergency, or you were outside the service area and urgently needed care , you
       could only go to (Name of HMO)'s doctors , hospitals , and medical providers?

       Possible€
       answers:             Yes€



ANALYSIS BY GENDER€

The analysis by gender showed no indication of nonresponse bias.

Examining the proportions of males and females in the overall sample , in the
respondent group, and in the nonrespondent group, no significant difference was€
found:

                                         TABLE 1
                                             Male                         Female
                                   Number            Percent     Number            Percent
 Sample (n = 833)               372             45%            460            55%
 Respondents (n = 601)          271            45%             329            55%
 Nonrespondents (n = 232)       103            44%             129            56%




                                            D - 2€
                                                                                       ---                           ---




Even if males and females 
                   did answer questions differently, it can be assumed that the€
survey results would not have been different if the nonrespondents had been€
interviewed.€


ANALYSIS BY AGE€

The analysis by age revealed no indication of nonresponse bias.€

The proportions of individuals age 73 or younger and those age 74 or older were€
determined for the overall sample , the respondent group, and the nonrespondent€
group. It                                            nonrespondents was slightly lower€
                 was found that the percentage of younger

than the percentage of younger  respondents€

                                                                  TABLE €


                                                               73 or 
    Younger                   74 or   Older€
                                                            Number€            Percent         Number           Percent€
  Sample (n = 833)                                            612€               73%              221            26%€
  Respondents (n = 601)                                       451€               75%              150            25%€
  Nonrespondents (n = 232)                                     161€              69%                             31%€

Given these differences , the survey responses to the three questions were examined to€
determine if individuals in the younger group answered differently than those in the€
older group. We found that for two of the questions, responses differed only slightly€
by age:€

                                                                  TABLE €


      #2.              Did you call (Name o HMO to get information, or did (Name o HMO€
                       contact you to ask you to enroll?€
                                                                  73 or     Younger                     74 or Older€
                                                                         (n = 451)                      (n = 150)


                                                              Number                 Percent     Number         Percent€
  Beneficiary Initiated Contact                                327                    72%         106            71%€
 HMO Initiated Contact                                         111                    25%                        26%€
 Beneficiary Does Not€
 Remember€
 Response Missing€




                                                                      D - 3€
                                                    TABLE 4
      #7.€              When you signed the application form, did you know that unless it was an€
                        emergency, or you were outside the service area and urgently needed care, you
                        could only go to (Name of HMO)' s doctors, hospitals, and medical providers?
                                                     73 or Younger                        74 or Older
                                                           (n = 451)                       (n = 150)

                                                 Number                  Percent   Number           Percent€
  Yes                                             393                     87%       133                89%€
                                                                          12%                          10%€
  Response Missing

Regarding the third question used in our nonresponse analysis , it was found that age€
of the respondent did relate to the answers given. Younger respondents more
frequently reported that it           was clear to them that they were joining an HMO when
they signed the application form:



                                                    TABLE 5

  Q#6.                  When you signed the application form, was it clear to you that you were€
                        enrolling in a Health Maintenance Organization?€
                                                     73        or Younger                 74   or Older
                                                          (n    = 451)                    (n      150)
                                                Number                   Percent   Number           Percent
  Yes                                             402                    89.        123              82.
                                                                                                     15.3%€
  Beneficiary Does Not                                                                                 1.3%
  Remember
  Response Missing                                                                                     1.3%




                                                      D - 4€
Assuming that the nonrespondents might answer this question as did their age- group€
peers in the respondent group, the responses were recalculated to include the€
nonrespondents. The result was compared to our original finding:

                                                     TABLE 6€
                                                   Actual Respondents          The Entire Sample
                                                          (n = 601)€                 (n = 833)€
                                                          Answered:€          Might Have Answered:
                                                   Number        Percent€    Number          Percent€
  Yes (It was clear)€                               525           87.3%€       725            87.€
  No (It was not clear)€                                          10.€                        11.0%€
  Beneficiary Does Not Remember€
  Response Missing

The   actual   response to this question and the            potential response (after rounding) were€
almost identical.


ANALYSIS BY HMO€

Similarly, a comparison of response rates for each of the five HMOs showed no
evidence of bias.




                                                      D - 5€
                           APPENDIX E€
                       COMMENTS TO DRAFT REPORT


Comments on the draft report were received from HCF A and the Assistant Secretary
for Planning and Evaluation (ASPE). Both agencies agree that HCFA should identify
and review frequent enrollment changes , and HCF A believes they now have that
capability. While ASPE supported the concept of a "cooling off' period for Medicare
enrollees , HCF A thinks a " cooling off' period is not needed.

Neither agency concurred with the other recommendations. We will defer our
comments on their responses until the OIG completes its national study on HMO
disenrollments (OEI- 06-91- 00730).

We have responded to each technical change suggested by HCFA and ASPE.




                                       E - 1

..                                                               --"-'        ~-.-
                                                                               - ' ~.
                                                                              ,.              -.-....
                                                                                                   '--.r--
                                                                                                                 (,        ."'"
                                                                                                                         ;.;-
                                                                                                                         --:;   ~~/;
                                                                                                                              ~=-
                                                                                                                             .'-,c)
                                                                                                                                /T
                                                                                                                                     .- --.
                                                                                                                                     =:
                                                                                                                                     ~'" ~
                                                                                                                                         =='




                     DEPART.'t\ENT OF HEALTH &. HUI't\AN SERVICES                                        m 'h€
                                                                          f1.      -r
                                                                                                                            ti"'J1,~_
     .::::-i                                                                              Washington .           D. C.         20201


                                           MAY 2 9 1991         .c-~\:i
                                                                DIG-:1.S
                                                                 i:'"- i:'i
                                                                                                                                            -:'1
                                                                Dlc-or                                                    ~::5
                                                                                                                                            ""T1
               TO:           Richard P. Kusserow
                             Inspector General
                                                                AIG-                                                                        (");0
                                                                                                                                            ;-:1
                                                                OGC/IG                                                               1710
                                                                                        -7"                                                 -:'1
               FROM:€        Assistant Secretary for.           EXSEC

                                                                DATE SENT
                                                                                                                         '...J..J


                                                                                                                                                   c::::
                             Planning and Evaluation                                                                                        UJ




               SUBJECT:€ OIG Draft Reports: Marketing Practices and Enrollm~t
                         Patterns for South Florida HMOs, OEI-04-91-00630 an~                                                               :=l
                             OEI-04-91-00640 -- COMMENTS
               I appreciate the opportunity to comment on the reports. In€
               general, they appear to point more to the need for improved data€
               collection, closer monitoring and follow-up, particularly €
               disenrollment patterns, than for implementation of new€
               procedures.  Consequently, ~ I am inclined to disagree with certain
               of your recommendations , as noted below.
                             OEI-O4-91-00630:      Marketincr Practices
                                   HCFA to establish standards for sales force
                                   training and monitoring: I understand that HCFA
                                   has worked informally with the Group Health
                                   Association of America to improve marketing
                                   practices of HMO sales representatives nationally.
                                   Responsibility for oversight of marketing staff
                                   rests with state licensing agencies.
                                             t enrollment to one "open season" per year.
                                  This recommendation would require -legislation and.
                                   Limi



                                  has the appearance of a year-long lock-in which
                                  Congress has constantly rej ected. Moreover,
                                  section 6206 of OBRA-89 eliminated a coordinated
                                  open enrollment requirement, which had never been
                                   implemented, except under certain circumstances.
                                  Continuous open enrollment in competi ti ve markets
                                  allows beneficiaries to select the benefit package€
                                  that best fits their needs, regardless of when€
                                  that decision is reached (and,          given the data on
                                                                      I S report, at most,
                                  page a of the €      Miami Area HMO
                                  sales representa~ives appear responsible for only€
                                  20 percent of changes compared with nearly three€
                                  times more who expressed dissatisfaction regarding€
                                  HMO physicians or       services).     Admittedly, this
                                  practice         requires closer monitoring against
                                  abus i ve marketing practices.


                                                    E-2
         -. . - -----                     ~..
Page 2 - Richard P. Kusserow
                        Based on the preceding comment, I agree that HCFA
                        should establish systems to identify and review
                        cases of frequent enrollment change. Cases in
                        which marketing abuses are suspected should be
                        reported to state licensing agencies.

                        Third party handling of RHO enrollment actions:
                        Except for existing authority to disenroll at
                        social Security District Offices, closer
                        monitoring and follow-up would be preferable.
                        OtherNise, responsibility for training
                        salespersons and the question
                                                      of payment for these
                        services arise.
                          suppor':. the   concepta "cooling off" period
                                                             of


                        for Medicare risk enrollees.

           OEI-O4-91-00640:           Enrollment Patterns

                        This analysis indicates the need for more data
                        collection, closer monitoring and follow-up. The
                        inabili ty to segregate the Miami Area enrollment
                        for Humana makes it difficult to interpret the
                        results.
          Editorial Comments

          Regarding both reports, I suggest that OIG staff
          solicit technical assistance from HCFA/Office of
          Prepaid Health Care Operations and oversight on the
          "Background" sections which distinguish fee-for-service
          from prepaid health               plans.
                                      See, for exa~ple, the
           ttached pages.



                                            Mar--..in H. Gerry

Attachments




                                                    E - 3

                                                &.     - ..   .--         ,~". ....~
                                                                                  . - . : ~~-:
                                                                                           " ! ' :::.
                                                                                       . _.-€
                                                                                (: '- ;.,€                 ..'      .._
                                                                                      '-1 ) \L:J  0,.. I Qc. 'e\'.)
                                                                                                                          1'0 €




            DEPARTMENT OF HEALTH                      HUMAN SERVICES ,\=-l":i'
                                                                                        ~~1
                                                                                     ~CuY\~.~cv\
                                                                                         , .:LJ
                                                                                                                        Health Care
                                                                                                                        Financing Administration
                                                                          \;FF:::: :~~F :\         ::C €




:::z.                                                                                                               Memorandum
            AUG I 5 Ig9r                                                                 ; :d,         f"!.
                                                                                                                 :i.u
                                                                                                                  "'0

 Date
           Gail R. Wilensky, Ph. D          , -1) )
 From      Administrator                    r V'-"€



 Subject
           OIG Draft Re orts: " Marketing Practices and Enrollment Patterns for South
           Florida H1Y10s "    (OEI- O4- 91- 00630 and OEI- 04- 91- 00640)

           Inspector General€
           Office of the Secretary€



              We have reviewed the above referenced draft reports evaluating Health€
           Maintenance Organization (HMO) marketing practices for South Florida and HwfO€
           enrollment patterns in the Miami area. As an overall comment on each of the
           above reports , we view the findings as generally positive in that they dispel many of
           the erroneous preconceptions about the marketing and enrollment practices of€
           Medicare-contracting HMOs in the South Florida area.€

              Given the positive nature of the reports, we do not believe that the findings                                             as
           reported in the two reports warrant all of the changes in the Medicare HMO
           program suggested by OIG. However, we agree with one of your recommendations.
           Our specific comments on the reports ' recommendations are attached for your
           consideration.

              Thank you for the opportunity to comment on these reports. Please advise us of
           whether you agree with our position on the reports ' recommendations at your
           earliest convenience.€



           Attachment€



                             PDIG€
                             DIG-AS€
                            ..~DIG-EI€
                             DIG-OI€
                             AIG-MP €

                             OGC/W€
                             EX3Ee €                   . \1' -... .€


                             D~TE c:!l~ €




                                                                       E - 4€
                                                                      , "





               Comments of the Health Care Financing: Administration
                             on OIG Draft Reports:
                             Marketing Practices and
                     Enrollment Patterns for South Florida HMOs
                       (OEI- O4-91- 00630 and- Of:I- 04- 91- 00640)



Recommendation 1 is contained only in OEI- O4- 91- 00630.         Recommendations 2
through 5 are contained in both OIG reports.

Recommendation
                                                                        monitoring, and hold
HCF A should establish standards for sales force training and
HMOs accountable for maintaining those standards.

HCF A Response

                                                                                      the general
We do not believe it is appropriate or necessary to presence more than HCF A
standards for sales activities of organizations that are already required for
contracts. HNfOs are currently held accountable for marketing practices that lead
to erroneous and uninformed enrollments. Without effective sales force training
and monitoring, an HNfO will be subject to contract
                                                        termination, intermediate
                                                                            failures.
sanctions, and/or civil monetary penalties for marketing and enrollment
                                                               an tThtfO to provide a
Under the authority of 42 CFR ~417.428(a), which requires
                                                         beneficiaries to make an
written statement of rules " and other information for
informed decision about enrollment " HCF A has taken a number
                                                                      of actions to

correct problems found at individual HMOs.

In Southern California, for example, where there have been problems with
                                                                         after-sale
                                                                     ) enrollment
beneficiaries not understanding lock- in, an after- the- fact (i.e.
verification process is the norm among all HNfOs in the area, and the situation has
                                                                 Similarly, for
improved as a result of the efforts of the HCFA regional office.
Humana Medical Plan of Florida, we believe that marketing practices have
                                                          survey of beneficiaries) as
significantly improved since October, 1990 (after the OIG
                                                                   office staff, in
a result of Humana s working with the HCFA regional and central
conjunction with intensified monitoring of the Plan. HCF A was successful in its
                                                                  of certain
efforts to encourage Humana to set up its own internal monitoring
                                                            reports.
operations , and we can monitor Humana through its internal




                                             E - 5€
 Page 2


We believe the regulation of insurance and HMO sales agents is more properly a
State function and we wish to note that many States impose requirements on HMO
marketing personnel and     brokers. ?1orida has taken a number of steps to prevent
marketing abuses , including    a requirement that there be certification of enrollment
in a Medicare tllvfO by someone other than a sales agent.

Finally, we do believe our civil monetary penalties (CMP) and intermediate
sanctions authority in this area could be expanded. Currently, although CMPs and
intermediate sanctions can be applied against entities that provide false information
we do not have that authority in regard to entities that engage in door- to- door
marketing or that offer gifts or payment of more than a nominal value to induce
enrollment. In addition , we currently only have the authority to impose a CMP
against an entity; we do not have the option of imposing a CMF against an
individual, such as a sales agent. Weare submitting an A- 19 to the Department
which addresses these issues. We would hope that you will support our proposal.

Recommendation


(opportunity to enroll) per  year.
HCF A should establish a policy limiting enrollment to one " open    season



HCFA Resuonse

We do not believe that OIG findings , which show that a minority of HMO enrollees
have had multiple HMO enrollments , are sufficient cause to make a major policy
change in HCF A' s approach to beneficiaries ' ability to choose HMO enrollment as
a Medicare option. The OIG found that switching from one plan to another, even
on a frequent basis, is not necessarily indicative of marketing or enrollment abuses
but rather beneficiary choice, as noted above. Where " ping- ponging" does in fact
result from marketing or enrollment abuses, HCF A has the means to require an
tllvfO to cease such practices.

A hallmark of the Medicare fee- for-service program is the beneficiaries ' freedom of
choice of providers.  Beneficiaries who choose to enroll in a Medicare risk-based
Hlv!O consciously choose to receive care from only the HlV!O providers , in order to
minimize their administrative burden and to benefit from lower out-of- pocket costs.
Under current law, it should be noted that they are able to exercise the choice
betWeen HMOs and fee- for-service at any time , if they choose to disenroll from an
HMO. However, there are limitations under current law, if an HMO conducts only
the minimum 30- day required annual enrollment period.




                                            E-6
Page 3

HCF A has traditionally viewed the Hi\t10 option as a choice that is available on a
voluntary basis to beneficiaries residing in areas where Medicare HMOs are
available , and we have left it up to the HJ...10s to decide whether they preferred a
policy of enrollment other than on a year-round , continuous basis. CuIT~ntly, only
3 percent of Medicare beneficiaries are enrolled in Medicare risk- based HNlOs.
HNfOs that have a capacity to conduct continuous open enrollment should be
allowed the option of flexible enrollment periods, since it expands beneficiaries
choices.

A legislative change would be necessary to impose a single open enrollment period.
Since 1985 (the first year of "TEFRA" Medicare risk contracting), Congress has
changed the original provisions of the Social Security Act relating to Medicare
Hj\tl0 enrollment and disenrollment. Congress mandated that Medicare risk- based
HNfO enrollees have the right of immediate disenrollment from the HMO (to
replace the previous provision that could delay a disenrollment for up to
                                                                             60 days).
Congress also did away with a coordinated open enrollment period requirement
(introduced in the Deficit Reduction Act of 1984). The intent of
                                                                   Congress has
been consistently to give beneficiaries maximum flexibility in choosing the HNI0
option while giving HMOs the leeway      to determine the appropriate enrollment
periods.

Recommendation

HCF A should establish an on- line system to identify and review cases of frequent
enrollment change.


HCF A Response

HCF A has developed such a capability. The Managed Care Option Information
(MCCOY) Group Health Plan (GHP) System provides online management
information reports and the capability to update beneficiary enrollments
disenrollments, health status indicators and residence codes. We believe this system
satisfies the intent and spirit of GIG' s recommendation.

Recommendation

In the three-county   Miami service area, RCF A should test the efficacy   of a third

rqrty handling Hi\t10 enro~lment
                                   actions.




                                              E - 7

 Page 4

 HCF A Response

 Ti1C efficacy of a third party   enrollment process has been tested and many problems
 were found.   We do not believe that the OrG' s findings warrant anotller test
 because this problem affects a small number of beneficiaries. In the vast majority
 of cases (72 percent), the beneficiary initiated the first contact with an HM:O. A
 third party enrollment process would be more appropriate in a situation where the
 HM:O contacts the beneficiaries first, in the majority of cases.€

If enrollments were the responsibility of a third party, such as the Social Security
Administration (SSA) (as GIG suggests), the level of enrollment activity in the
Miami area would make the function a massive undertaking in terms of personnel€
and costs (costs currently financed through the HCF A capitation payments made to
the fTh10s). Unless the third party could fairly present each HM:O' s advantages
competition in the marketplace could be stifled. , HCFA would also have a new€
monitoring responsibility of assuring that the third party was properly enrolling€
individuals in the appropriate HMO, etc.€

The GIG may    wish to consider the findings of the General Accounting Office
(GAG) in its evaluation of the HealthChoice demonstration project in Oregon and
California-a demonstration of the use of a third- party broker for Medicare HM:O
enrollment. Problems    that the GAO pointed out included the questionable
authority for HCFA' s financing the project, unfair treatment of HMOs (those paying
the broker for its services versus those that did not), inadequate Privacy Act
safeguards , and the erroneous impression given by the broker that it was an agent
of the Government. Many of the GAO objections would be obviated if SSA were
the third party, but having SSA function as an tTh10 broker is itself problematic
beginning with the difficulty of getting SSA to agree to undertake such a function.
(Please note that the SSA HMO disenrollment function was a legislative mandate.

Recommendation€

HCF A should impose a " cooling off' period allowing beneficiaries to reconsider
HlyIO enrollment decisions before enrollment applications   are processed.


HCFA Response€

An official " cooling off' period is not needed. If a beneficiary does change his or
her mind, there is usually a certain time lag between the marketing presentation
and the time the enrollment is actually transmitted to HCF A; a timely cancellation
is therefore possible. HCF A also permits retroactive disenrollment of beneficiaries
for good cause (for example , failure to fully understand lock- in) if there has not
been a fully informed decision to ~nroll in an HNfO.

                                           E - 8€
                        SPECIFIC COMMENTS€



Page 5

Were the 22 beneficiaries who have changed HMOs multiple times identified
during a review of the initial sample size of 833 beneficiaries? If not , all
references to this separate sample should be segregated in a separate section of
the report with separate descriptions of how these individuals were chosen.

OIG Response: Oarification has been added to the Methods section to show
that the 22 beneficiaries were not part of the random sample of 833.

Page 7

The impression created by the statement "Although HCF A regulations prohibit
door- to- door solicitations , 34 percent of those the HMO contacted (8 percent
of all the beneficiaries) say salespersons stopped by their homes " is misleading.
HCFA regulations at 42 CFR 417.428(b)(4) prohibits door- to- door solicitations;
however, they do not prohibit any personal contact at home between a sales
representative and a prospective or current HMO member. Sales calls at a
person s home may be the result of telemarketing interest follow-up or mail-
response follow-up.

OIG Response: The text has been clarified to show that beneficiaries who say
salespersons stopped by their homes are those who say the HMO initiated the
contact.

Page 7

The fact that " sixty-four percent of the beneficiaries the HMO contacted do not
know where the salespersons who contacted them got their names " is relevant
only if it can be shown that an at- home marketing visit was made without
having been requested by the beneficiary. If the contacts were phone contacts
or mass mailings , for example , the HMO may have obtained the person s name
from any number of direct marketing sources. There is no prohibition on direct
marketing of this nature. However, a small number of individuals , as noted on
page B- , stated that the salesperson got their names from Social Security or
Medicare. SSA and HCFA do not release beneficiaries ' names; therefore , the
statement may indicate that the marketing representative alleged that the
person s name had been provided by SSA or HCF A, or the respondents may
be confused on this point.




                                  E - 9

                                                                , "




Page 8

Although initial training may be as stated, follow-up sessions for CAC-
RAMSAY agents occur every 2 weeks.

OIG Response: No revisions made to text. When the information was verified
with the HMO prior to release of the Draft report, CAC-Ramsay did not
disagree with the wording.

Page 13

Comments made in regard to non-marketing issues such as things about
HMOs " disenrollees " had wished they had known before joining, " without
substantiating data or further discussion should be deleted from the report.
The report itself conceded that "these do not relate to marketing issues.

OIG Response: Section has been removed from the report.
Page 15

The conclusions reached on page 15 and page 16 in regard to the statement
that " Some HMOs fail to adequately monitor sales staff, leaving beneficiaries
vulnerable to inappropriate marketing practices " are not supported by the data
summarized on page 14.

OIG Response: The chart on page        14 reflects   general practices of the HMOs.
Pages 15 and 16 refer to   specific practices.

Page 15

The State of Florida has now enacted a statutory prohibition regarding      the use
of agents attached to PCP' s and/or clinics as marketing agents.

OIG Response: We understand this legislation has been enacted since our
inspection was completed; however, the report has not been revised as there is
no national prohibition regarding this practice.

Pages 16-

It would appear that the conclusion that " some beneficiaries have been
vulnerable to unethical sales practices " is based upon the 22 beneficiaries
discussed on these pages which do not appear to be part of the large sample
study upon which the rest of the report is based. It is questionable why this
should be included in the report which is based primarily on a selected sample
size.



                                   E - 10
OIG Response: The text on pages 16-18 does refer to the 22 beneficiaries
identified by HCFA Their experiences are included in tlris report as they
relate to HMO marketing practices.

Appendix B

Regarding item 8b ,the interviewer is required to ask a person whether or not
they have end-stage renal disease or have elected Medicare hospice coverage.
In either case ,   such a person would not be eligible to enroll in a Medicare
HMO.

OIG Response: This data is included in the appendix for information only. No
conclusions were reached from the beneficiaries ' responses to questions 8a- &1.




                                     E - 11

